U.S. Census Bureau
FY 2009 Performance and
Accountability Report                                                           Issued November 2009


                                                                                CENSR-24




USCENSUSBUREAU                        U.S. Department of Commerce
                                      Economics and Statistics Administration
                                      U.S. CENSUS BUREAU
Helping You Make Informed Decisions
                           U.S. Census Bureau
                     FY 2009 Performance and
                         Accountability Report                                Issued November 2009




                                   U.S. Department of Commerce
                                                    Gary Locke,
                                                        Secretary

                                              Dennis F. Hightower,
                                                  Deputy Secretary

                            Economics and Statistics Administration
                                                  Rebecca M. Blank,
                                  Under Secretary for Economic Affairs

                                                  U.S. CENSUS BUREAU
                                                     Robert M. Groves,
                                                               Director




U.S. Census Bureau                                      FY 2009 Performance and Accountability Report i
 Suggested Citation
    DeNavas-Walt, Carmen,
 Bernadette D. Proctor, and
            Jessica C. Smith,
        U.S. Census Bureau,
Current Population Reports,
 P60-236, Income, Poverty,
      and Health Insurance
     Coverage in the United
               States: 2008,        ECONOMICS
  U.S. Government Printing       AND STATISTICS

    Office, Washington, DC,     ADMINISTRATION

                       2009.
                                Economics and Statistics
                                Administration
                                Rebecca M. Blank,
                                Under Secretary for Economic Affairs




                                U.S. CENSUS BUREAU
                                Robert M. Groves,
                                Director
                                Thomas L. Mesenbourg,
                                Deputy Director and Chief Operating Officer
                                Ted A. Johnson,
                                Associate Director for Administration and
                                Chief Financial Officer
                                Andrew H. Moxam,
                                Comptroller
                                James E. Tyler Jr.,
                                Chief, Budget Division
                                Joan P. Simms,
                                Chief, Finance Division
Table of Contents
   Statement from the Director . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                         1

                     MANAGEMENT’S DISCUSSION AND ANALYSIS SECTION
                     U.S. Census Bureau Mission and Organization . . . . . . . . . . . . . . . . . .                                            ...          5

                     FY 2009 Performance Highlights . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     ...          6

                     Census Bureau’s Process for Strategic Planning and 

                      Performance Reporting. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                ...          7

                         Performance Management Process . . . . . . . . . . . . . . . . . . . . . . . .                                         ...          7

                         How the Census Bureau Selects Its Performance Outcomes 

                          and Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            ...          7

                         Performance Validation and Verification . . . . . . . . . . . . . . . . . . . .                                        ...          7

                         Performance Controls and Procedures . . . . . . . . . . . . . . . . . . . . .                                          ...          8

                     Most Important Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                               ...          8

                     Analysis of Financial Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                ...          9

                         Composition of Assets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                ...          9

                         Composition of Liabilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                 ...          9

                         Net Cost of Operations by Strategic Goal . . . . . . . . . . . . . . . . . . .                                         ...          9

                     Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                ...         11 

                         Federal Managers’ Financial Integrity Act (FMFIA) of 1982 . . . . . .                                                  ...         12

                         Federal Financial Management Improvement Act (FFMIA) of 1996                                                           ...         14

                     Debt Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                ...         15

                     Payment Practices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            ...         15

                         Central Contractor Registration (CCR) Policy . . . . . . . . . . . . . . . .                                           ...         15

                         Electronic Funds Transfer (EFT). . . . . . . . . . . . . . . . . . . . . . . . . . .                                   ...         15

                         Bankcards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          ...         15

                         Prompt Payment. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              ...         15

                     Limitations of the Financial Statements . . . . . . . . . . . . . . . . . . . . . . .                                      ...         16

                     GAO High Risk Issues/2010 Census . . . . . . . . . . . . . . . . . . . . . . . . .                                         ...         16

                         Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       ...         16

                         Goal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     ...         16

                     American Recovery and Reinvestment Act (Recovery Act) . . . . . . . . .                                                    ...         17


                     PERFORMANCE SECTION
                     Introduction to the Performance Section . . . . . . . . . . . . . . . . . . . . . . . . .                                              21

                         Strategic Goal 1: Provide benchmark measures of the 

                          U.S. population, economy, and governments . . . . . . . . . . . . . . . . . .                                                     22

                         Strategic Goal 2: Provide current measures of the 

                          U.S. population, economy, and governments . . . . . . . . . . . . . . . . . .                                                     24


                     FINANCIAL SECTION
                     Message from the Chief Financial Officer . . . . . . . . . . .                     .   .   .   .   .   .   .   .   .   .   .   .   .   29

                     Principal Financial Statements . . . . . . . . . . . . . . . . . . . .             .   .   .   .   .   .   .   .   .   .   .   .   .   30

                         Consolidated Balance Sheet . . . . . . . . . . . . . . . . . .                 .   .   .   .   .   .   .   .   .   .   .   .   .   30

                         Consolidated Statement of Net Cost . . . . . . . . . . . .                     .   .   .   .   .   .   .   .   .   .   .   .   .   31

                         Consolidated Statement of Changes in Net Position                              .   .   .   .   .   .   .   .   .   .   .   .   .   32

                         Combined Statement of Budgetary Resources . . . . .                            .   .   .   .   .   .   .   .   .   .   .   .   .   33

                     Notes to the Financial Statements . . . . . . . . . . . . . . . . .                .   .   .   .   .   .   .   .   .   .   .   .   .   34

                         Note 1. Summary of Significant Accounting Policies.                            .   .   .   .   .   .   .   .   .   .   .   .   .   34

                         Note 2. Fund Balance With Treasury . . . . . . . . . . . . .                   .   .   .   .   .   .   .   .   .   .   .   .   .   39

                         Note 3. Accounts Receivable, Net. . . . . . . . . . . . . . .                  .   .   .   .   .   .   .   .   .   .   .   .   .   39




U.S. Census Bureau                                                  FY 2009 Performance and Accountability Report iii

   Note 4. Inventory. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     .   .   .   .   .   .   .   .   40 

   Note 5. General Property, Plant and Equipment, Net. . . . . . . . . . . . . . . . . . . . . .                        .   .   .   .   .   .   .   .   40

   Note 6. Liabilities Not Covered by Budgetary Resources . . . . . . . . . . . . . . . . . .                           .   .   .   .   .   .   .   .   41

   Note 7. Other Liabilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      .   .   .   .   .   .   .   .   43

   Note 8. Leases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   .   .   .   .   .   .   .   .   44

   Note 9. Commitments and Contingencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      .   .   .   .   .   .   .   .   44

   Note 10. Intragovernmental Cost and Exchange Revenue . . . . . . . . . . . . . . . . .                               .   .   .   .   .   .   .   .   45

   Note 11. Statement of Net Cost by Major Programs (Unaudited) . . . . . . . . . . . .                                 .   .   .   .   .   .   .   .   46

   Note 12. Stewardship PP&E . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            .   .   .   .   .   .   .   .   47

   Note 13. Apportionment Categories of Obligations Incurred (Unaudited) . . . . . .                                    .   .   .   .   .   .   .   .   47

   Note 14. Consolidating Reconciliation of Net Cost of Operations (Proprietary) 

    to Budget (Unaudited). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        ........                        48

Required Supplementary Information for the Statement of 

 Budgetary Resources by Major Accounts (Unaudited) . . . . . . . . . . . . . . . . . . . . . .                          ........                        49

Independent Auditors’ Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          ........                        57


APPENDIXES
Appendix A: Performance and Resource Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                       65


Appendix B: Definition of Performance Measures and Validation 

 and Verification Information. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        69


Appendix C: Improper Payments Information Act (IPIA) 

 Reporting Details . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  72


Appendix D: Top Management Challenges Facing the Census Bureau . . . . . . . . . . . . . . . . . . .                                                    76


Appendix E: Stakeholders and Crosscutting Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                        79


Appendix F: Summary of Financial Statement Audit and Management Assurance . . . . . . . . . .                                                           80


Appendix G: List of Key Acronyms. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             81





iv FY 2009 Performance and Accountability Report                                                                                                              U.S. Census Bureau
                                                                                       STATEMENT FROM THE DIRECTOR


                                 STATEMENT FROM THE DIRECTOR
                                 I am pleased to submit the U.S. Census Bureau’s FY 2009 Performance
                                 and Accountability Report (PAR). The report describes the Census Bureau’s
                                 programmatic and ﬁnancial performance and includes its ﬁnancial statements
                                 for FY 2009. This is the Census Bureau’s ﬁrst stand-alone PAR and its ﬁrst stand-
                                 alone ﬁnancial report since FY 2001. The data and details in this report provide
                                 an account of the Census Bureau’s accomplishments in providing benchmark and
                                 current measures of the U.S. population, economy, and governments. Through
                                 performance toward these goals, the Census Bureau, which falls under the
                                 Economics and Statistics Administration, also supports the goal of our parent
                                 agency, the Department of Commerce, to maximize U.S. competitiveness and
                                 enable economic growth for American industries, workers, and consumers.

Benchmark
    h   k Measures off the Population, Economy, and Governments

Major 2010 Census Operations Are Underway
Major operations of the 2010 Census have begun. In FY 2009, we conducted the Address Canvassing operation.
In that operation, more than 150 thousand temporary ﬁeld workers fanned out across the country and veriﬁed the
addresses and locations of over 140 million housing units in less than 4 months. This accomplishment provides
the foundation for the constitutionally mandated population count that will be conducted next spring, with Census
Day on April 1, 2010. We also began the Group Quarters Validation operation, which veriﬁes the type and location
of group quarters housing units, such as college dormitories and residential care facilities. In successfully carrying
out this operation, we have completed the opening and staﬃng of 150 early local census oﬃces and have begun
the process of opening the 344 additional local census oﬃces that we will need to manage operations in FY 2010.

The Census Bureau also completed the ﬁrst major advertising buy for the 2010 Census in June. The 2010 Census
Integrated Communications Campaign contract totals over $300 million, including over $110 million in American
Recovery and Reinvestment Act funding. The advertising campaign is multitargeted, multimedia, multilingual,
and research-based. It features advertising that will be seen nationwide, as well as local advertising targeted at
traditionally hard-to-count populations. It also includes a road tour aimed at increasing awareness of the census
and a Census in Schools program.

These eﬀorts are coupled with a partnership program heavily focused on regional eﬀorts to spread the word that
participation in the census is crucial to the functioning of our democracy and the fair and equitable allocation
of federal funds. More than 2,000 locally based partnership staﬀ are on the ground across the nation working
to support census outreach and promotion eﬀorts with partners such as Complete Count Committees, religious
organizations, schools, local and tribal governments, and various community-based organizations.

The Economic Census and Census of Governments Release Benchmark Economic Data
Every 5 years, the economic census proﬁles the U.S. economy from the national to the local level. The economic
census covers 84 percent of the gross domestic product (GDP). Data from the economic census help build the
foundation for the GDP and other indicators of economic performance. In FY 2009, several major data sets from
the 2007 Economic Census were released, including the advance report, which provides a ﬁrst glance of the
economy at broad sector levels. The 2007 Economic Census includes new data on employer costs associated with
pension funds and health coverage and other new data sets targeting speciﬁc needs of the Bureau of Economic
Analysis (BEA), including data on franchising, computer systems integration, patient care, and research and
development acquisitions.

Also every 5 years, the census of governments provides comprehensive and uniformly classiﬁed data on the
organization and economic activities of state and local governments. This complex and ever-changing state- and
local-government universe is a major economic force, totaling about 12 percent of GDP and nearly 16 percent of
the U.S. workforce. In FY 2009, we released data from the government organization and employment phases of the
census of governments.


U.S. Census Bureau                                                    FY 2009 Performance and Accountability Report 1
STATEMENT FROM THE DIRECTOR


Current Data on the Economy and Population
New Data on the Services Industry Are Collected for the First Time
The services sector constitutes 55 percent of GDP but has not been well measured in the past. In FY 2009, we
instituted an expansion of our services sector statistics programs that will close that gap in 3 short years.
The Improved Measurement of Services initiative will expand the Quarterly Services Survey and the Service Annual
Survey so that they fully cover this vital sector of our economy by the end of FY 2011. Already, in FY 2009, we
nearly doubled the coverage of the Quarterly Services Survey—from 17 to 30 percent—so that it matches the
current level of annual coverage. These eﬀorts will provide the BEA with timely new source data needed to improve
the national economic accounts.

Survey of Income and Program Participation Is Restored and Improvement Work Continued
The Census Bureau continued the Survey of Income and Program Participation (SIPP), which was restored in
September 2008, at its full sample size of 45,000 households. In addition, a multiyear eﬀort to improve the survey
was launched. By the end of 2012, these eﬀorts will yield updated computer programming, improved content,
development and implementation of an event history calendar to facilitate enhanced accuracy in responses, and
security enhancements to laptops used in the ﬁeld.

Program Data, Management, and Financial Performance
The ﬁnancial data and program performance results described in this report enable us to administer our programs,
gauge their success, and make adjustments necessary to improve program quality and service to policymakers,
businesses, and the American public. In short, they help us remain the leading source of quality data about the
nation’s people and economy.

In response to the Reports Consolidation Act of 2000, we are reporting that the ﬁnancial and performance data presented
are substantially complete and reliable, in accordance with U.S. Oﬃce of Management and Budget (OMB) Circulars No.
A-136, Financial Reporting Requirements, and A-11, Preparation, Submission and Execution of the Budget. Details,
including any speciﬁc data limitations, are discussed in the body of the report. Our ﬁnancial systems are in substantial
compliance with the requirements of the Federal Financial Management Improvement Act of 1996. Our balance sheet and
related notes for FY 2009 were audited by independent auditors and an unqualiﬁed (“clean”) opinion was received.

The Census Bureau reviews its performance validation and veriﬁcation processes to ensure that the performance
data are accurate. The Census Bureau maintains a quarterly monitoring process that reviews performance
measurement data, as well as the measures themselves. This process includes reviewing the data used to determine
the results, reviewing the measures for validity, and then developing recommendations for improving them.

We must also comply with the management control standards established by the Federal Managers’ Financial Integrity
Act of 1982 (FMFIA) and OMB Circulars No. A-123, Management’s Responsibility for Internal Control, and A-127, Financial
Management Systems. Continual evaluation of our operations through a variety of internal and external studies enables
us to determine whether our systems and management controls comply with the FMFIA. Based on these reviews for the
programs, organizations, and functions covered by the FMFIA, the Census Bureau’s systems of management controls,
taken as a whole, provide reasonable assurance that the objectives of the FMFIA have been achieved.

In Conclusion
I am very proud of the organization’s accomplishments during this ﬁscal year, and again, it is my pleasure to
submit the FY 2009 Performance and Accountability Report.




                                                   Robert M. Groves
                                                   Director
                                                   U.S. Census Bureau
                                                   November 12, 2009


2 FY 2009 Performance and Accountability Report                                                          U.S. Census Bureau
Management’s Discussion   CENSR-24



and Analysis
                                                                                           U.S. CENSUS BUREAU MISSION AND ORGANIZATION
                                                  The Census Bureau serves as the leading source of quality data about the nation’s people and economy. We honor privacy,
                                                  protect confidentiality, share our expertise globally, and conduct our work openly. We are guided on this mission by our




  U.S. Census Bureau
                                                  strong and capable workforce, our readiness to innovate, and our abiding commitment to our customers.



                                                                                                                            U.S. Department of Commerce
                                                                                                                                 Bureau of the Census

                                                                                                                                              DIRECTOR
                                                                                                                                                                                    Assistant Director
                                                                                                    Policy Office                                                                   for Marketing and
                                                                                                                                                                                    Customer Liaison
                                                                                                                                         DEPUTY DIRECTOR




                                                                               Associate Director                                                     Associate Director        Associate Director       Associate Director
                                                    Associate Director for                            Associate Director       Associate Director             for                       for                                      Associate Director
                                                                                for Information                                                                                                                 for
                                                     Administration and                                      for                       for           Economic Programs          Decennial Census                                for Methodology and
                                                                             Technology and Chief                                                                                                          Demographic
                                                   Chief Financial Officer                            Field Operations         Communications                                                                                        Standards
                                                                             Information Officer                                                                                                            Programs
                                                                                                                                                                               Assistant Director
                                                                                                                                                     Assistant Director for
                                                                                                                                                                                  for ACS and
                                                                                                                                                     Economic Programs
                                                                                                                                                                               Decennial Census
                                                            Comptroller             Computer              Technologies                                                                                                                Computer
                                                                                                                                   Congressional                                                             Demographic
                                                                                     Services             Management                                                                                                               Assisted Survey
                                                                                                                                   Affairs Office            Economic                                      Surveys Division
                                                                                     Division                Office                                                                                                                Research Office
                                                                                                                                                           Planning and             Decennial
                                                                                                                                                           Coordination            Management
                                                                                                                                                             Division               Division
                                                         Budget Division                                                                                                                                     Housing and
                                                                                     Tele-                   National                  Public                                                                                          Statistical
                                                                                 communications             Processing              Information                                                               Household                Research
                                                                                                                                                              Economic
                                                                                    Office                    Center                   Office                                                                  Economic                Division
                                                                                                                                                         Statistical Methods
                                                                                                                                                                                     American             Statistics Division
                                                                                                                                                         and Programming
                                                                                                                                                              Division              Community
                                                        Finance Division                                                                                                           Survey Office
                                                                                   Information                                                                                                                                        Planning,
                                                                                                                                                                                                             Demographic
                                                                                 Systems Support                                   Census 2010                                                                                        Research,
                                                                                                          Field Division                                     Center for                                   Statistical Methods
                                                                                and Review Office                                 Publicity Office                                                                                  and Evaluation
                                                                                                                                                             Economic                                          Division
                                                                                                                                                                                                                                      Division
                                                                                                                                                              Studies               Decennial
                                                       Human Resources                                                                                                               Statistical
                                                          Division                                                                                                               Studies Division
                                                                                 Systems Support             Regional
                                                                                                                                                             Company                                          Population
                                                                                     Division                 Offices:
                                                                                                                                                             Statistics                                        Division
                                                                                                           Boston, MA                                        Division
                                                         Administrative                                                                                                           Assistant Director
                                                                                                          New York, NY
                                                             and                                                                                                                    for Decennial
                                                                                                         Philadelphia, PA
                                                          Management                                                                                                                 Information
                                                                                                           Detroit, MI
                                                       Systems Division                                                                                    Service Sector          Technology and
                                                                                                           Chicago, IL
                                                                                                                                                             Statistics          Geographic Systems
                                                                                                         Kansas City, KS
                                                                                                           Seattle, WA                                       Division
                                                       Administrative and                                 Charlotte, NC
                                                       Customer Services                                   Atlanta, GA                                                          Decennial Systems
                                                           Division                                         Dallas, TX                                                            and Contracts
                                                                                                           Denver, CO                                      Foreign Trade          Management
                                                                                                         Los Angeles, CA                                     Division                Office


                                                          Acquisition
                                                           Division
                                                                                                                                                                                    Geography
                                                                                                                                                           Governments
                                                                                                                                                                                     Division
                                                                                                                                                             Division

                                                       Equal Employment
                                                         Opportunity
                                                             Office                                                                                       Manufacturing
                                                                                                                                                         and Construction
                                                                                                                                                            Division




FY 2009 Performance and Accountability Report 5
                                                                                                                                                                                                                                                      MANAGEMENT’S DISCUSSION AND ANALYSIS
MANAGEMENT’S DISCUSSION AND ANALYSIS


FY 2009 PERFORMANCE HIGHLIGHTS
Overall performance results for the Census Bureau show that four of the five performance targets were met. (See
Appendix A for a listing of the targets.) Below are obligations and full-time equivalents by strategic goal. Achieving
results in each of the strategic goals furthers the Census Bureau mission. This summary provides a snapshot of the
targeted achievements. Discussions and highlights of the results can be found in the “Performance Section.”


                                                                                 Percentage
(Dollars in Millions)                                                               Change                  FY 2009                   FY 2008
For the Years Ended
September 30, 2009 and 2008
Obligations by Strategic Goal:
Strategic Goal 1: Provide benchmark measures of the
U.S. population, economy, and governments                                          202.1%                    2,773.4                    917.9
Strategic Goal 2: Provide current measures of the
U.S. population, economy, and governments                                            1.8%                     715.9                    703.1
Total Obligations                                                                 115.3%                   $3,489.3                 $1,621.0

Full-Time Equivalents (FTEs) by Strategic Goal:
Strategic Goal 1: Provide benchmark measures of the
U.S. population, economy, and governments                                          551.3%                     20,007                    3,072
Strategic Goal 2: Provide current measures of the
U.S. population, economy, and governments                                            4.2%                      6,231                    5,979
Total FTEs                                                                        189.9%                      26,238                    9,051




                 PERFORMANCE RESULTS                                             Total Obligations                Total FTEs
                                                                                 Billions of dollars              Thousands
                                                                           4.0                              30
                     Number of Targets
                                                                           3.5
                                                                                                            25
    Did not meet                                     Met                   3.0
    performance                                      performance                                            20
           target                                    target                2.5
                1                                    4
                                                                           2.0                              15

                                                                           1.5
                                                                                                            10
                                                                           1.0
                                                                                                              5
                                                                           0.5

                                                                           0.0                                0
                                                                                    2009        2008                2009       2008



   Note: Obligations differ from amounts shown in the Statement of Budgetary Resources because they do not include Recovery Act, Expired,
   and the Working Capital Funds.




6 FY 2009 Performance and Accountability Report                                                                               U.S. Census Bureau
                                                                             MANAGEMENT’S DISCUSSION AND ANALYSIS


THE CENSUS BUREAU’S PROCESS FOR STRATEGIC PLANNING
AND PERFORMANCE REPORTING
The Census Bureau’s Strategic Plan provides a comprehensive vision to meet constitutional and legislative
mandates by:

• 	 Implementing a reengineered 2010 Census program that is cost-eﬀective, provides more timely data, improves
    coverage accuracy, and reduces operational risk.
• 	 Supporting the economic and political foundations of the United States by producing benchmark measures of
    the economy and population for the administration and equitable funding of federal, state, and local programs.
• 	 Supporting innovation, promoting data use, minimizing respondent burden, respecting individual privacy, and
    protecting the conﬁdentiality of respondents’ information.
• 	 Meeting the needs of policymakers, businesses and nonproﬁt organizations, and the public for current
    measures of the U.S. population, economy, and governments.

The plan puts forth broad objectives, targets speciﬁc outcomes, and identiﬁes key challenges. The Census Bureau
issued its strategic plan for FY 2007 through FY 2012 in June 2007. It can be found at <www.census.gov/main
/www/strategicplan/strategicplan.pdf>.

The Census Bureau’s goal structure has three levels. Strategic goals describe outcomes that emerge from the
Census Bureau’s mission. Each of these goals in turn has outcome goals or objectives that deﬁne the results that
the Census Bureau aims to achieve. These are long-term objectives that often involve more than one program. Each
has associated indicators and targets to measure the Census Bureau’s impact on a continuous basis.

The Strategic Plan and Annual Performance Plan (APP) provide the speciﬁc performance goals and measures
that align with the Census Bureau’s strategic goals and objectives. These performance goals are linked with
the resource requirements for the past, current, and upcoming ﬁscal years. These plans are integrated with the
President’s budget submission to Congress, at the bureau level. Census Bureau FY 2010 APPs can be found at
<www.census.gov/aboutus/FY_2010_Congressional_Submission.pdf>.

Performance Management Process
An overall performance management process ensures that performance feedback, accountability, results,
corrective action, and planning occur. This FY 2009 Performance and Accountability Report (PAR) provides a public
accounting of the Census Bureau’s FY 2009 performance results and completes the performance management
process. Appendix A of this PAR provides details of the Census Bureau’s performance and explanatory materials
supporting the program results.

How the Census Bureau Selects Its Performance Outcomes and Measures
Performance outcomes articulated in the introductory material for each goal in the Strategic Plan and APP are
aimed at achieving one or more strategic outcomes and convey a sense of how the Census Bureau creates value
for the U.S. public. Performance measures depict tangible progress by Census Bureau program activities toward
these goals. When considered along with external factors and information provided in program evaluations, these
measurements give valuable insight into the performance of an agency’s programs and are meant to broadly
illustrate how the agency adds value to the U.S. economy. More in-depth performance results for FY 2009 and prior
years are available in Appendix A.

Performance Validation and Veriﬁcation
The Census Bureau uses a broad range of performance outcomes and measures to make reporting useful and
reliable. It is imperative that performance measures be backed by accurate and reliable data; valid data are important
to support management decisions on a day-to-day basis. The data and the means to validate and verify the measures
are also diverse. Validation and veriﬁcation tables appear in the APP in the FY 2010 budget submission. These tables
identify each measure and the following information: (1) data source, (2) frequency, (3) data storage, (4) internal
control procedures, (5) data limitations, and (6) any actions to be taken. This information is available at
<www.census.gov/aboutus/FY_2010_Congressional_Submission.pdf>. Each quarter the Census Bureau reviews its
performance validation and veriﬁcation processes to ensure that the reported performance data are accurate.



U.S. Census Bureau 	                                                  FY 2009 Performance and Accountability Report 7
MANAGEMENT’S DISCUSSION AND ANALYSIS


Performance Controls and Procedures
Performance Data: The Census Bureau’s performance measurement data are collected from the program areas,
each with systems to manage their data validation and veriﬁcation processes. Some of these are automated
systems and others are manual processes.

Financial Data: The Census Bureau has a high degree of conﬁdence in its ﬁnancial data. Normal audit and other
ﬁnancial management controls maintain the integrity of these data elements. During the FY 2009 Financial
Statement audit, tests and review of the core accounting system and internal controls were conducted by
independent auditors in compliance with the Chief Financial Oﬃcers Act. Further, the Census Bureau conducted its
assessment of the eﬀectiveness of internal control over ﬁnancial reporting, which includes safeguarding of assets
and compliance with applicable laws and regulations, in accordance with the requirements of Appendix A of Oﬃce
of Management and Budget Circular No. A-123. Based on the results of this evaluation, the Census Bureau provided
reasonable assurance that its internal control over ﬁnancial reporting was operating eﬀectively.

Performance Reviews: The Census Bureau also conducts quarterly performance reviews. During these reviews, the
Census Bureau Director reports to the Commerce Department’s Deputy Secretary on the current status of Census
Bureau performance and its progress toward Government Performance and Results Act measures that will appear
in this report.

MOST IMPORTANT RESULTS
In FY 2009, the Census Bureau continued to increase and improve the quality and availability of economic and
demographic information used as a basis for important decisions by business leaders, policymakers, and the
U.S. public. In FY 2009, the Census Bureau, in support of the 2010 Decennial Census, opened all 150 early local
census oﬃces and the Puerto Rico area oﬃce, signed leases for the 344 local census oﬃces, and began deploying
equipment to these oﬃces. In addition, ﬁeld operations for the decennial census began, including completion
of the Address Canvassing operation that utilized more than 150,000 temporary workers who used handheld
computers to verify the Census Bureau’s list of addresses and their locations; the beginning of the Census
Coverage Measurement Independent Listing operation, which will compile a list of housing units and potential
housing units in a sample of blocks used to evaluate coverage of the 2010 Census; and the beginning of the Group
Quarters Validation operation, which veriﬁes address geography, validates addresses, determines the status of the
Other Living Quarter addresses, and classiﬁes validated Group Quarters. These activities represent the earliest ﬁeld
operations for the 2010 Decennial Census, the largest nonmilitary activity undertaken by the U.S. government.

In addition, the Census Bureau completed data collection for the 2007 Economic Census and started delivery of
some 1,600 data releases through the Web-based American FactFinder dissemination system. The 2007 Economic
Census Advance Report was released, and over 91 percent of the industries covered in the Industry Series report
were released in FY 2009. The ﬂow of 2007 Economic Census data products will continue through FY 2011.

In response to needs of the national accounts, the annual County Business Patterns (CBP) program is developing
a new product that will summarize data for North American Industry Classiﬁcation System (NAICS) industries by
legal form of organization. The Census Bureau will release data for the calendar year 2007 reference period to the
Bureau of Economic Analysis as a special tabulation; for 2008 and later reference periods, the product will become
a regular part of the CBP product line, which is distributed through the American FactFinder.

In FY 2009, the Census Bureau completed the ﬁrst full year of data collection for a new panel of the Survey
of Income and Program Participation (SIPP), which began in September 2008. Progress continued on all four
components of the SIPP reengineering project, with the anticipated release of a new reengineered SIPP Panel in
2013. The four components include:

• 	 Improving the collection instrument and processing system—which involves rewriting the survey questionnaire
    as well as the post–data collection data processing programs.

• 	 Developing an event history calendar (EHC)—EHC is a method within a survey instrument intended to help
    respondents accurately recall survey responses by tying them to signiﬁcant life events. This is especially
    important with the reengineered instrument since the reference period will increase from 4 to 12 months.



8 FY 2009 Performance and Accountability Report 	                                                     U.S. Census Bureau
                                                                            MANAGEMENT’S DISCUSSION AND ANALYSIS


• 	 Using administrative records data—which will be used to measure the quality of survey responses, particularly
    with respect to government programs.

• 	 Including stakeholder interaction—this eﬀort involves continuous communication with major data users, such
    as congressional representatives, academia, and policymakers, on the plans for the data to be provided from
    the reengineered survey.

ANALYSIS OF FINANCIAL RESULTS

Composition of Assets
The Census Bureau’s assets have increased signiﬁcantly due to additional funding for the 2010 Decennial Census.

Total assets amounted to $2.5 billion and $849 million at September 30, 2009 and 2008, respectively. Fund
Balance With Treasury in the amount of $2.3 billion and $705 million in 2009 and 2008, respectively, is the
aggregate amount of funds available to make authorized expenditures and pay liabilities. General Property, Plant
and Equipment, Net of Accumulated Depreciation (General PP&E) totaled $141.7 million and $115.8 million in
2009 and 2008, respectively. General PP&E includes $14.3 million and $8.8 million of Construction in Progress
in 2009 and 2008, respectively; $88 million and $73.3 million of Internal Use Software in 2009 and 2008,
respectively (including $48.4 million and $41.1 million of Internal Use Software in Development in 2009 and 2008,
respectively); and $4.2 million and $3.9 million of Leasehold Improvements, Net in 2009 and 2008, respectively.
Other General PP&E totaled $35.2 million and $29.9 million in 2009 and 2008, respectively, and other Assets
totaled $75.1 million and $29 million in 2009 and 2008, respectively. Other Assets primarily include Advances and
Prepayments of $14.8 million and $15.7 million in 2009 and 2008, respectively; Accounts Receivable, Net of $15.1
million and $13 million in 2009 and 2008, respectively; and Inventory, Materials and Supplies, Net of $45.2 million
and $335 thousand in 2009 and 2008, respectively.

Composition of Liabilities
The Census Bureau’s total liabilities amounted to $425.4 million and $318 million at September 30, 2009 and
2008, respectively. Unearned Revenue in the amount of $85.5 million and $93.1 in million in 2008 and 2009,
respectively, represents the portion of monies received from customers for which goods and services have not
been provided or rendered by the Census Bureau. The Actuarial Federal Employees’ Compensation Act (FECA)
Liability in the amount of $65 million and $61.4 million in 2009 and 2008, respectively, represents the actuarial
liability for future workers’ compensation beneﬁts. Accounts Payable in the amount of $126.9 million and $61.4
consists primarily of amounts owed for goods and services in 2009 and 2008, respectively. Accrued Payroll and
Annual Leave in the amount of $118.6 million and $65.8 million includes salaries and wages earned by employees,
but not disbursed as of September 30, 2009 and 2008, respectively, and $0 and $16.6 million represent Capital
Lease Equipment, Net in 2009 and 2008, respectively. Other Liabilities totals $29.4 million and $19.7 million in
2009 and 2008, respectively. Other Liabilities primarily includes Accrued FECA Liability of $13 million and $11.3
million in 2009 and 2008, respectively; Accrued Beneﬁts of $12.4 million and $7 million in 2009 and 2008,
respectively; and $4 million and $1.4 million of Contingent Liabilities in 2009 and 2008, respectively.

Net Cost of Operations by Strategic Goal
Net Cost of Operations amounted to $2.7 billion and $1.2 billion in FY 2009 and FY 2008, respectively. Gross
Costs of $2.9 billion less Earned Revenue of $238 million and of $1.5 billion less Earned Revenue of $244 million
were recorded in FY 2009 and FY 2008, respectively. Strategic Goal 1 (“Provide benchmark measures of the U.S.
population, economy, and governments.”) includes Net Program Costs of $2.5 billion and $976 million for FY 2009
and FY 2008, respectively, at the Census Bureau. Strategic Goal 2 (“Provide current measures of the U.S. population,
economy, and governments.”) includes Net Program Costs of $140 million (Gross Costs of $378 million less Earned
Revenue of $238 million) and Net Program Costs of $254 million (Gross Costs of $498 million less Earned Revenue
of $244 million) for FY 2009 and FY 2008, respectively. The Census Bureau carries out the decennial census,
periodic censuses, and demographic and other surveys, and prepares and releases targeted data products for
economic and other programs.




U.S. Census Bureau 	                                                 FY 2009 Performance and Accountability Report 9
MANAGEMENT’S DISCUSSION AND ANALYSIS




                    Total Assets
                    Dollars in millions
           $3,000
                                          $2,500
            2,500

            2,000

            1,500

            1,000                                    $849

              500

                0
                                          FY 2009   FY 2008




                    Total Liabilities
                    Dollars in millions
            $500
                                           $425
              400
                                                     $318
              300

              200

              100

                0
                                          FY 2009   FY 2008




                    Total Net Cost of Operations
                    Dollars in millions
           $3,000
                                          $2,700
            2,500

            2,000

            1,500
                                                    $1,200
            1,000

              500

                0
                                          FY 2009   FY 2008




10 FY 2009 Performance and Accountability Report              U.S. Census Bureau
                                                                              MANAGEMENT’S DISCUSSION AND ANALYSIS


MANAGEMENT CONTROLS
The Census Bureau’s management team is responsible for establishing and maintaining eﬀective internal control
and ﬁnancial management systems that meet the objectives of the Federal Managers’ Financial Integrity Act. The
Census Bureau conducted its assessment of internal controls over operations and compliance with applicable laws
and regulations in accordance with the Oﬃce of Management and Budget (OMB) Circular No. A-I23, Management’s
Responsibility for Internal Control and the Department of Commerce’s (DOC) FY 2009 guidance. Based on the results
of this evaluation, the Census Bureau can provide reasonable assurance its internal controls, as of September 30,
2009, were operating eﬀectively, and no material weaknesses were found in their design or operation.

The Census Bureau conducted its assessment of the eﬀectiveness of its internal controls over ﬁnancial reporting,
which includes a review of controls for safeguarding assets and compliance with applicable laws and regulations, in
accordance with the requirements of Appendix A of OMB Circular A-123. Based on the results of this evaluation, the
Census Bureau can provide reasonable assurance its internal controls over ﬁnancial reporting as of June 30, 2009, were
operating eﬀectively, and no material weaknesses were found in their design or operation. No material weaknesses
related to internal control over ﬁnancial reporting were identiﬁed between July 1 and September 30, 2009.

In FY 2009, the Census Bureau took a number of actions to assess and strengthen internal controls in the area of
information technology security and operations in support of the DOC’s overall improvement eﬀorts. For instance,
the Census Bureau (1) improved its incidence reporting, (2) performed technology vulnerability assessments,
(3) continued its certiﬁcation and accreditation of systems, and (4) updated its IT Security Program Policy.

In accordance with OMB Circular A-127, Financial Management Systems, the Census Bureau can provide reasonable
assurance the ﬁnancial management system on which it relies to carry out its responsibilities conforms to
government-wide requirements. The reasonable assurance is based on compliance with the Financial Systems
Integration Oﬃce, U.S. Government Accountability Oﬃce (GAO), and U.S. Standard General Ledger requirements.

In response to the presence of the 2010 Decennial Census on the Inspector General’s (IG’s) Semiannual Report to
Congress (March 2009) as one of the Department of Commerce’s major challenges, the IG’s recommendations from
2010 Census: First Quarterly Report to Congress (August 2009), and placement on the Government Accountability
Oﬃce’s “high-risk list” in 2008, the Census Bureau has taken a number of actions to act upon the recommendations
and issues raised in these reports. Most notably, the Census Bureau developed a High Risk Improvement Plan, and
complementary lines of action, to include (1) developing an integrated and comprehensive plan to control costs
and manage operations; (2) strengthening risk-management activities; (3) strengthening systems testing; and (4)
improving management of the FDCA contract eﬀort.

Finally, as a recipient of American Recovery and Reinvestment Act (ARRA) of 2009 funds, the Census Bureau has
taken a number of actions to make ARRA funds use transparent and accountable to the public and oversight
agencies. For instance, the Census Bureau established the following: (1) a public Web site to report its use and
tracking of ARRA fund activities; (2) a unique fund structure to track obligations and spending of ARRA funds; and
(3) a separate Treasury Account to distinguish ARRA from non-ARRA funds.




                                                  Robert M. Groves
                                                  Director
                                                  U.S. Census Bureau
                                                  November 6, 2009




U.S. Census Bureau                                                   FY 2009 Performance and Accountability Report 11
MANAGEMENT’S DISCUSSION AND ANALYSIS


Federal Managers’ Financial Integrity Act (FMFIA) of 1982
During FY 2009, the Census Bureau reviewed its management control system in accordance with the requirements
of FMFIA and OMB and DOC guidelines. The objective of the Census Bureau’s management control system is to
provide reasonable assurance that:

• 	 Obligations and costs are in compliance with applicable laws.
• 	 Assets are safeguarded against waste, loss, and unauthorized use of appropriations.
• 	 Revenues and expenditures applicable to Census Bureau operations are properly recorded and accounted for,
    permitting accurate accounts, reliable ﬁnancial reports, and full accountability for assets.
• 	 Programs are eﬃciently and eﬀectively carried out in accordance with applicable laws and management policy.

Section 2 of the FMFIA—Internal Management Controls
The Census Bureau can report, on the basis of its annual assessments, that no material weaknesses were identiﬁed
in FY 2009 in connection with its internal and administrative controls. The eﬃciency of the Census Bureau’s
operations is continually evaluated using its internal assessment functions and information obtained from reviews
conducted by the GAO and the Oﬃce of Inspector General (OIG).

2010 Census
In response to the 2010 Census being placed on the GAO’s “high-risk list” in FY 2008, the Census Bureau developed
a High Risk Improvement Plan. This plan set forth the Census Bureau’s approach for addressing speciﬁc GAO
recommendations. The plan categorized pertinent elements from the overall recovery plan into four broad
areas of action: (1) developing an integrated and comprehensive plan to control costs and manage operations;
(2) strengthening risk-management activities; (3) strengthening systems testing; and (4) improving management of
the Field Data Collection Automation (FDCA) contract eﬀort.

Following the rescope of the 2010 Census from August to October of 2008, the Census Bureau has worked closely
with the DOC, OMB, and oversight bodies to ensure the success of the decennial program, focusing on a range of
challenges, including program management, risk management, integration, and testing. Speciﬁcally, the Census
Bureau worked with a number of OIG and GAO review teams in FY 2009 to identify and correct weakness in 2010
Census operations and management, and has been responsive to the presence of the 2010 Census on the OIG’s
Semiannual Report to Congress (March 2009) as one of the DOC’s major challenges.

In FY 2009, the Address Canvassing operation, involving over 150,000 temporary staﬀ, was successfully completed,
but at a higher cost than planned. The Census Bureau is conducting a detailed assessment of the factors that
increased costs to determine possible impacts on future ﬁeld operations. This is part of a broad eﬀort to control and
manage ﬁeld costs, which includes a daily Cost & Progress system and more detailed performance targets.

The Census Bureau also launched reviews of Decennial and Field administrative areas to ascertain compliance
with statutory ﬁnancial and budgetary regulations as well as property regulations and with DOC headquarters’
administrative policies and procedures.

In addition, in FY 2009 the Census Bureau commenced planning for the 2020 Census. This robust eﬀort included
strategic planning, formal governance and communication plans, and program management and operational
design options. This robust, early planning will ensure eﬀective control over costs, operations, and risks.

American Recovery and Reinvestment Act (ARRA) of 2009
The Census Bureau was a recipient of ARRA funds in FY 2009 and has taken action to comply with agency
reporting requirements issued by OMB on June 22, 2009 (M-09-21, Updated Recovery Act Guidance). The
Census Bureau has worked with the DOC in making public information on spending (available obligations and
expenditures), announcing signiﬁcant activities on a weekly basis, conﬁguring data input controls within systems
of records to prevent erroneous or missing data, putting in place controls to validate receipt of transmitted data,
and implementing an ARRA entity-level risk assessment.




12 FY 2009 Performance and Accountability Report 	                                                      U.S. Census Bureau
                                                                               MANAGEMENT’S DISCUSSION AND ANALYSIS


Information Technology (IT) Security Controls
The Census Bureau places a high level of importance on providing the most secure IT environment possible to
protect the sensitive information collected and processed under Title 13, U.S. Code, as well as the information
resources critical to the day-to-day operation of the Census Bureau.

Improved Incident Reporting
The Census Bureau continued to improve its incident-reporting response of lost or stolen personally identiﬁable
information (PII). It developed a strategy to prepare for the expected increase in reported decennial-related incidents.
For example, a Decennial Computer Incident Response Team was created to handle the increased reporting of PII in
the Decennial areas.

Performed Technology Vulnerability Assessments
The Information Technology Security Oﬃce continued its use of the anytime self-scanning capability for system
administrators using Security Console 3 from Tenable to conduct quarterly vulnerability assessments. The results
of these assessments are tracked to ensure vulnerabilities are addressed with Plans of Actions and Milestones. The
Census Bureau has added the capability to scan for compliance with the Federal Desktop Core Conﬁguration PC
settings.

Certiﬁcation and Accreditations Improvement Process
The IT Directorate continued to improve the certiﬁcation and accreditation methodology of all IT systems with the
addition of a new annual continuous monitoring process in July of 2009.

Information Technology Security Oﬃce (ITSO) Outreach Program
The Outreach Program initiative, which ensures that system owners and senior management are provided with
the information they need to implement secure systems, has continued. Security brieﬁngs were prepared and
conducted for ﬁve out of the six authorizing oﬃcials and their system owners regarding their respective systems.

The following were reviewed:

a. 	 The security role-based training program, which continues to be managed and tracked; 90 percent of the
     eligible staﬀ received training.

b. 	 The Division Security Oﬃcer program, which has been redesigned and new security roles introduced.

c. 	 The Information Security Management Policy, which was approved, with assistance from the data manager. This
     policy establishes a new role, information security manager, that reports to the authorizing oﬃcial to represent
     security matters for all systems under the authorizing oﬃcial.

d. 	 The ITSO Web site on the Census Bureau’s intranet, which has been improved regarding content and
     organization of important IT security policy and information.

IT Security Compliance
In FY 2009, a total of four systems were certiﬁed and accredited to include one of the Census Bureau’s largest
general support systems.

A major revision to the IT Security Program Policy was developed, vetted, and ﬁnalized in FY 2009 in accordance
with the DOC IT Security Program Policy and National Institute of Standards and Technology (NIST) Special
Publication 800-53r2.

A new Continuous Monitoring Compliance Policy was developed and implemented in FY 2009.

The ITSO conducted IT Security reviews for eight of the twelve regional oﬃces (ROs) as part of an administrative
review process. The review process was started in 2007 and is ongoing. The IT security portion of the reviews
is focused on RO compliance with a subset of NIST 800-53 security controls and the Census Bureau’s IT Security
Program. The ROs were generally in compliance with the subset of 800-53 controls reviewed. Any identiﬁed


U.S. Census Bureau 	                                                  FY 2009 Performance and Accountability Report 13
MANAGEMENT’S DISCUSSION AND ANALYSIS


deﬁciencies were discussed with the RO director or staﬀ and addressed. The ROs continue to monitor their
compliance with federal and departmental IT policies and requirements as a result of the reviews.

Information Systems Security Line of Business
In FY 2009, the Census Bureau implemented a new DOC-mandated tool, Cyber Security Assessment Methodology
(CSAM), to manage and track certiﬁcation and accreditation artifacts. All system security weaknesses and remedial
actions are tracked and managed using CSAM; quarterly and annual Federal Information Security Management Act
reports to DOC come through CSAM. The Census Bureau developed a pilot of CSAM to evaluate the full capabilities
of CSAM and continues to participate on interagency project teams to consider enhancements and uses of CSAM.

Other Internal Control Activities
The Census Bureau participated in the DOC’s comprehensive eﬀort to enhance management of internal controls
under OMB Circular No. A-123 in FY 2009, continuing to participate in the DOC’s Senior Management Council and
Senior Assessment Team annual agenda of internal control reviews.

Fiscal Year 2009 Testing

Process                                                                               Issues Found to Date
Financial Reporting                                                                   None
Acquisition                                                                           None
Leases                                                                                None
Software                                                                              None
Depreciation                                                                          None
Disposal                                                                              None
Invoice Processing for Decennial Response Integration System (DRIS)                   None
Invoice Processing for Field Data Collection and Automation (FDCA)                    None
Invoice Processing for Communication Contract                                         None
Decennial Applicant Personnel and Payroll System (DAPPS)                              None
Personal Property Audit                                                               None


Section 4 of the FMFIA—Internal Controls Over Financial Management Systems
In accordance with OMB Circular No. A-127, Financial Management Systems, the Census Bureau can provide
reasonable assurance the ﬁnancial management system on which it relies to carry out its responsibilities conforms
to GAO principles and standards, the requirements of the Chief Financial Oﬃcers Act, and OMB requirements. The
Census Bureau had no material weaknesses under Section 4 of the FMFIA.

Finally, the Census Bureau received an unqualiﬁed (“clean”) audit opinion on its September 30, 2009, Consolidated
Balance Sheet. The audit was performed by KPMG LLP and conducted in accordance with OMB guidance and
government auditing standards. The audit is required to be performed annually, and it tests whether the
Census Bureau is in compliance with certain laws and regulations, including the Federal Financial Management
Improvement Act.

Federal Financial Management Improvement Act (FFMIA) OF 1996
The FFMIA requires federal agencies to substantially comply with federal ﬁnancial management system
requirements, federal accounting standards, and the U.S. Standard General Ledger at the transaction level.
The Census Bureau complied substantially with the FFMIA for FY 2009.




14 FY 2009 Performance and Accountability Report                                                     U.S. Census Bureau
                                                                            MANAGEMENT’S DISCUSSION AND ANALYSIS


DEBT MANAGEMENT
The Census Bureau has debt which includes health beneﬁts and other indebtedness for current and former
employees. The Debt Collection Improvement Act of 1996 established the Treasury Department as the collection
agency for eligible federal agency debts that are more than 180 days delinquent.

At September 30, of the $2.6 million in gross receivables from the public, $6 thousand was over 180-days
delinquent. Debt delinquent for 180 days or more in the amount of $1.5 thousand has been referred to Treasury.

The Census Bureau consistently met the Oﬃce of Management and Budget Performance Metric for delinquent debt
referral in FY 2009. Delinquent debt (180 days or older) on average accounted for 2.63 percent of the Census
Bureau’s total receivables due from the public during FY 2009. Agencies maintaining their debt at less than 10
percent of their total receivables are considered fully successful by OMB standards.

PAYMENT PRACTICES
Central Contractor Registration (CCR) Policy
Pursuant to the Federal Accounting Regulation (FAR) 4.11, prospective vendors must be registered in CCR prior to
the award of a contract, basic agreement, basic ordering agreement, or blanket purchase agreement. According
to FAR 52.204-7, to register in CCR, a ﬁrm must have a Data Universal Numbering System (DUNS) number. The
DUNS number is assigned by Dun & Bradstreet, Inc. (D&B) to identify unique business entities. Electronic funds
transfer (EFT) and assignment of claims are stated in FAR 52.232-33 Paragraph G: “EFT and assignment of claims.
If the Contractor assigns the proceeds of this contract as provided for in the assignment of claims terms of this
contract, the Contractor shall require as a condition of any such assignment, that the assignee shall register
in the CCR database and shall be paid by EFT in accordance with the terms of this clause. In all respects, the
requirements of this clause shall apply to the assignee as if it were the Contractor. EFT information that shows the
ultimate recipient of the transfer to be other than the Contractor, in the absence of a proper assignment of claims
acceptable to the Government, is incorrect EFT information within the meaning of paragraph (d) of this clause.”

Electronic Funds Transfer (EFT)
The Debt Collection Improvement Act of 1996 requires the use of EFT for most federal payments, with the exception
of tax refunds. The Census Bureau closely monitors its monthly EFT performance and submits consolidated monthly
EFT activity reports to the Oﬃce of Management and Budget (OMB) as part of the Department of Commerce’s
Performance Metrics data.

The Census Bureau’s vendor EFT percentage increased from 97.5 percent for FY 2008 to 98 percent for FY 2009.
The Census Bureau accomplished this, in large part, by working closely with its program oﬃces and departments
to identify opportunities for new or improved business processes. This improved performance allowed the Census
Bureau in FY 2009, on average, to meet OMB’s vendor EFT performance goal of 96 percent. The Census Bureau
has maintained its overall EFT percentage at 97 percent from FY 2008 to FY 2009. The Census Bureau believes its
continued eﬀorts to implement new or improved business processes will lead to further increases in vendor and
overall EFT percentages.

Bankcards
The number of bankcards has ﬂuctuated in proportion to the Census Bureau acquisition cycle. Reversing a long-
term trend, the number of active bankcards decreased from 385, on September 30, 2008, to 190 on September
30, 2009. The Census Bureau continues to monitor the internal controls surrounding bankcard purchases to ensure
that all such purchases are legal and proper.

Prompt Payment
The Prompt Payment Act of 1982 requires agencies to pay their bills to vendors on a timely basis and to pay
interest penalties when payments are made late. The Census Bureau closely monitors its prompt payment
performance and submits monthly consolidated prompt payment activity reports to OMB as part of the Census
Bureau’s Performance Metrics data.




U.S. Census Bureau                                                  FY 2009 Performance and Accountability Report 15
MANAGEMENT’S DISCUSSION AND ANALYSIS


The Census Bureau has maintained its prompt payment performance at 99.7 percent from FY 2008 to FY 2009.
Prompt payment performance percentages are maintained at a high level by working closely with program oﬃces
and departments.

LIMITATIONS OF THE FINANCIAL STATEMENTS
The Census Bureau has prepared its FY 2009 ﬁnancial statements in accordance with the requirements of Oﬃce of
Management and Budget (OMB) Circular No. A-136, Financial Reporting Requirements, as amended, and guidance
provided by the Department of Commerce. OMB Circular No. A-136 incorporates the concepts and standards
contained in the Statements of Federal Financial Accounting Concepts and the Statements of Federal Financial
Accounting Standards recommended by the Federal Accounting Standards Advisory Board and approved by the
Secretary of the Treasury, the Director of the OMB, and the Comptroller General.

The ﬁnancial statements have been prepared to report the ﬁnancial position, net cost of operations, changes in net
position, and status and availability of budgetary resources.

These ﬁnancial statements have been prepared to report the overall ﬁnancial position and results of operation of
the Census Bureau, pursuant to the requirements of 31 U.S.C. 3515(b). While the statements have been prepared
in accordance with the form and content prescribed by OMB Circular No. A-136, the statements are in addition to
the ﬁnancial reports used to monitor and control budgetary resources that are prepared from the same books and
records. Additionally, they have been prepared from the books and records of the Census Bureau in accordance with
Generally Accepted Accounting Principles for federal entities.

These ﬁnancial statements should be read with the realization that the Census Bureau is a component of the
U.S. government, a sovereign entity. One implication of this is that the liabilities cannot be liquidated without
legislation that provides the resources to do so.

GOVERNMENT ACCOUNTABILITY OFFICE (GAO) HIGH RISK ISSUES/2010 CENSUS
The High-Risk Series is a biennial report to Congress on major problems costing the federal government billions of
dollars annually. GAO has placed the U.S. Census Bureau’s 2010 Census program on this high risk list. Below is the
issue raised by GAO, and the actions the Census Bureau has taken and continues to take to address these issues.

Issues
Automation problems and uncertain costs and plans may jeopardize the success of the 2010 Census. These issues
warrant immediate attention. The decennial census is a constitutionally mandated activity that produces critical
data used to apportion congressional seats and to allocate over $400 billion in federal assistance each year.

Goal
Strengthen management and oversight and reduce risks for the 2010 Census.

Challenges/Actions
• 	 Develop an integrated and comprehensive plan to control costs and manage operations
     • 	 Continue to improve management practices and communications (both internal and external).
     • 	 Continue to manage the schedule with weekly analysis of the activities and milestones contained in the
         integrated project schedule.

• 	 Strengthen risk management activities and systems testing
     • 	 Continue to develop mitigation and contingency plans to accompany the risk management plan.
     • 	 Continue to review and update the risk register and ensure ongoing involvement of senior management
         in risk review.
     • 	 Continue development of detailed testing plans, including gap analysis.
     • 	 Conduct and monitor system testing across the 2010 Census program.



16 FY 2009 Performance and Accountability Report 	                                                       U.S. Census Bureau
                                                                            MANAGEMENT’S DISCUSSION AND ANALYSIS


• 	 Improve management of the Field Data Collection Automation (FDCA) eﬀort
      • 	 Conduct and monitor extensive testing, including coding and unit testing, ﬁeld testing, production
          integration testing, and operational readiness testing (by the Census Bureau and contractors).

      • 	 Successfully completed Address Canvassing ahead of schedule, using automated handheld computers
          supplied by the FDCA contractor.

      • 	 Continue to oversee deployment, by the FDCA contractor, of equipment and systems to the 

          local census oﬃces.


AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009 (RECOVERY ACT)
The Recovery Act was signed into law by President Obama on February 17, 2009. It is an unprecedented eﬀort to
jumpstart the U.S. economy, create or save millions of jobs, and put a down payment on addressing long-neglected
challenges so the country can thrive in the twenty-ﬁrst century. The Recovery Act is an extraordinary response to
promote economic recovery and growth, and includes measures to modernize the nation’s infrastructure, enhance
energy independence, expand educational opportunities, preserve and improve aﬀordable health care, provide tax
relief, and protect those in greatest need.


  Program                     Periodic Censuses and Programs
  Amount                      $1 billion
  Description                 To ensure a successful 2010 Decennial Census, the Census Bureau received $1
                              billion to hire new personnel for partnership and outreach eﬀorts to minority
                              communities and hard-to-reach populations, increase targeted media purchases, and
                              ensure proper management of other operational and programmatic risks.
  Current/Planned             Of the $1 billion received, $102.1 million was planned for FY 2009, with the
  Performance Measures        remaining amount planned for FY 2010. The FY 2009 activities include hiring 2,027
                              partnership staﬀ to aid in outreach eﬀorts, especially in hard-to-count areas. Other
                              planned actions include the start of targeted media purchases and the distribution
                              of promotional items via partnership staﬀ. For FY 2010, the Census Bureau
                              Recovery Act plans include the enumeration operations, such as group quarters
                              (college dormitories, military quarters, nursing homes, etc.), Update/Enumerate
                              (an enumerator updates residential addresses and conducts an interview of the
                              resident(s) using a paper questionnaire), and coverage follow-up (1,250 additional
                              temporary telephone interviewers will be hired to re-contact households to verify
                              the information on the census form, make corrections as warranted, and obtain any
                              missing demographic information based on speciﬁc criteria)—to name a few. Some
                              of the other Recovery Act funded activities for the 2010 Decennial Census include
                              expanded outreach via the Census in Schools program, the 2010 Census road-tour,
                              and the opening of Be Counted and Questionnaire Assistance Centers. For more
                              detailed information about the Census Bureau’s Recovery Act program plans, visit
                              <www.census.gov/recovery> or <www.recovery.gov>.
  Comments                    As of July 2009, the Census Bureau exceeded the Partnership Program’s goal by
                              hiring more than 2,200 partnership staﬀ for outreach activities. The decennial
                              census is used to provide the oﬃcial population counts for determining the
                              allocation to states of seats in the U.S. House of Representatives and for determining
                              how the boundaries of districts are deﬁned for those seats. Data collected from the
                              2010 Census provide comprehensive and useful demographic information about
                              all people living in the United States, Puerto Rico, and the associated Island Areas.
                              More than $400 billion a year is distributed to state and local governments using
                              formulas that are based on data such as state population and personal income. The
                              Census Bureau’s utilization of Recovery Act funding provides immediate and long-
                              term beneﬁts to the American Public by ensuring that everyone is counted and that
                              communities receive services to meet their needs.


U.S. Census Bureau 	                                                FY 2009 Performance and Accountability Report 17
Performance Section   CENSR-24
                                                                                                                     PERFORMANCE SECTION


INTRODUCTION TO THE PERFORMANCE SECTION
In FY 2009, the Census Bureau accomplished its mission through two strategic outcome goals that encompass
shorter-term outcomes and priorities. These outcomes have speciﬁc performance targets within a given ﬁscal year.

The summary chart below provides the historical trend data for Census Bureau ﬁnancial obligations and full-time
equivalent (FTE) resources. A table summarizing the performance outcomes follows in the next subsection. Other
tables in following subsections show the status of the performance measures associated with an outcome.

Historical details on each performance result are located in Appendix A, which provides individual measurement
results and descriptions of actions to be taken if the measure does not achieve positive results. It includes
explanations and strategies to address performance deﬁciencies. Appendix B presents deﬁnitions of the measures.




                                            TOTAL BUDGETARY RESOURCES: 2002–2009


                           Fiscal Dollars
                           Dollars in millions                                                                      $3,489.3
              $3,500

                3,000

                2,500

                 2,000
                                                                                                       $1,620.0
                 1,500
                                                                              $1,078.9    $1,173.0
                                                          $930.1   $1,013.6
                 1,000          $799.5       $846.9

                     500

                       0
                                 2002         2003        2004      2005       2006         2007         2008         2009




                           Total Budget
                           FTE1 resources
              30,000
                                                                                                                     26,660
              25,000

              20,000

              15,000

               10,000            8,420                    8,038     8,433      8,778        8,418        9,051
                                              7,729

                5,000

                       0
                                 2002         2003        2004      2005       2006         2007         2008         2009
                           1
                               FTE—Full-time equivalent


       Note: Obligations differ from amounts shown in the Statement of Budgetary Resources because they do not include Recovery Act,
       Expired, and the Working Capital Funds.




U.S. Census Bureau                                                                  FY 2009 Performance and Accountability Report 21
PERFORMANCE SECTION


Public Beneﬁts and Summary of Performance


 Strategic Goal                                                         Targets Met or Exceeded

 Provide benchmark measures of the U.S. population, economy, and        2 of 3
 governments

 Provide current measures of the U.S. population, economy and           2 of 2
 governments


Current and benchmark measures of the U.S. population, economy, and governments play a vital role in the
nation’s economic well-being. These measures focus on meeting the needs of policymakers, businesses and
nonproﬁt organizations, and the public for this information while respecting individual privacy, ensuring
conﬁdentiality, and reducing respondent burden. The result of achieving these measures promotes a better
understanding of the U.S. economy in that the activities involved provide timely, relevant, and accurate economic
data in an objective and cost-eﬀective manner.

The Census Bureau’s statistical programs and services are widely used by policymakers, business leaders, and the
U.S. public. As a primary source for measures of macroeconomic activity, the Census Bureau provides the nation
with the picture of its economic health.

Strategic Goal 1: 

Provide benchmark measures of the U.S. population, economy, and governments 

The Census Bureau provides benchmark measures of the nation’s economy and population to help decisionmakers
and the public make informed decisions. The Census Bureau’s cyclical programs provide the foundation for
critical national, state, and local data. These include the economic census and census of governments, which are
conducted every 5 years, the 2010 Census program, the Demographic Surveys Sample Redesign Program, and the
Intercensal Demographic Estimates Program.

The decennial census is used to provide the oﬃcial population counts for determining the allocation to states of
seats in the U.S. House of Representatives and for determining how the boundary of districts are deﬁned for those
seats. The Census Bureau provides to each state the data to be used to determine congressional, state, and local
legislative boundaries. The decennial census provides comprehensive and useful demographic information about
all people living in the United States, Puerto Rico, and the associated Island Areas. The program also provides
data for small geographic areas and population groups that federal agencies need to implement legally mandated
programs. More than $400 billion a year is distributed to state and local governments using formulas that are
based on data such as state population and personal income.

The economic census provides comprehensive, detailed, and authoritative facts about the structure of the
U.S. economy ranging from the national to the local level. The 2007 Economic Census covered nearly 29 million
business locations and 84 percent of the nation’s economic activity. The data help build the foundation for the
gross domestic product (GDP) and other indicators of economic performance.

The census of governments is the only source of comprehensive and uniformly classiﬁed data on the economic
activities of state and local governments. The 2007 Census of Governments covered about 90,000 local
governments, including thousands of subordinate agencies. This complex and ever-changing government universe
is a major economic factor totaling 12 percent of GDP and includes 16 percent of the U.S. workforce.

The Demographic Surveys Sample Redesign Program designs and selects samples for most major recurring
national household surveys conducted by the Census Bureau to account for changes in the population and
demographics, survey requirements and objectives, and survey methods and technology. The Intercensal
Demographic Estimates Program provides updated estimates of the U.S. population for the nation, states, counties,
cities, and townships.




22 FY 2009 Performance and Accountability Report                                                     U.S. Census Bureau
                                                                                               PERFORMANCE SECTION



  Performance Measure                                       Target                 Actual                 Status

  Correct street features in the TIGER® (geographic)        Complete updates       Completed updates      Met
  database (number of counties completed) to more           to eligible counties   to eligible counties
  eﬀectively support: Census Bureau censuses and            in the United          in the United
  surveys, facilitate the geographic partnerships between   States, Puerto Rico,   States, Puerto Rico,
  federal, state, local, and tribal governments, and        and the Island         and the Island
  support the E-Government initiative in the President’s    Areas                  Areas
  Management Agenda
  Complete key activities for cyclical census programs      At least 90 percent    92 percent of          Met
  on time to support eﬀective decision-making by            of key activities      key activities
  policymakers, businesses, and the public and meet         completed on           completed on
  constitutional and legislative mandates                   schedule               schedule
  Meet or exceed the overall federal score of customer      Meet or exceed         Census scored          Not met
  satisfaction on the E-government American Customer        the overall            68 percent
  Satisfaction Index (ACSI)                                 federal score
                                                            of 75.2 percent


FY 2009 Status
In FY 2009, the Census Bureau completed updates to street features in the Topologically Integrated Geographic
Encoding and Referencing System (TIGER®) database for eligible counties in the United States, Puerto Rico, and the
Island Areas.

The 2010 Census program completed opening early local census oﬃces, successfully completed Address
Canvassing operations ahead of schedule, and began Group Quarters Validation operations.

Key accomplishments of the economic census during FY 2009 included:

• 	 Beginning tabulation and macrodata analysis, which met the performance target for this milestone.

• 	 Achieving an 86.7 percent overall unit response rate of over 4.4 million mailed operating establishments,
    which exceeded the performance target for this measure. To achieve this result, the Economic Directorate
    developed an account program that assigned analysts to assist targeted large companies and completed early
    mailing to large companies, three follow-up mailings to multiunits, calls to classiﬁcation form delinquents, and
    reminder calls to delinquent multiunits. Eﬀorts to mitigate risk included sending a letter from the Department
    of Commerce’s Chief Counsel for Economic Aﬀairs, reminder calls to largest delinquent single units, and
    certiﬁed follow-up mailing to remaining delinquent single units.

• 	 Issuing the 2007 Economic Census Advance Report.

• 	 Receiving 28.6 percent of all economic census reports and 54.4 percent of reports for multiestablishment
    enterprises via electronic reporting, which exceeded corresponding rates from the previous census by
    60 percent or more.

• 	 Completing Industry Series releases for 588 of 646 covered industries (91.0 percent of the total), which exceed
    the 70 percent performance target.

During FY 2009, principal activities of the census of governments program included the release of the Individual
State Descriptions, completing the Organization Phase of the census of governments; release of data from the
Employment Phase of the census of governments; and release of the State Government Finances and data on State
and Local Government Public Employee Retirement Systems, and the completion of data collecting and processing
activities for the Local Government Finance Phase.

The Demographic Surveys Sample Redesign Program released documentation on the results of the ﬁnal evaluation
of the full National Evaluation Sample. Additionally, documentation on the ﬁnal recommendation and decision on
the acceptability of the Master Address File as the sampling frame was completed by the end of the ﬁscal year. This


U.S. Census Bureau 	                                                 FY 2009 Performance and Accountability Report 23
PERFORMANCE SECTION


is one of the most crucial decisions for sample redesign as it will move the Census Bureau to a new universe and
away from the four-part universe used since the 1960s.

The Intercensal Demographic Estimates Program met the schedule for the release of the oﬃcial set of July 2008
population estimates for the nation, states, counties, cities, and townships. Additionally, the program has been
working on several research projects designed to improve the population estimates. In FY 2009, this included
research on estimating net international migration to the United States and improvements to the Census Bureau’s
procedures for assigning race and Hispanic origin to births. The Census Bureau is also preparing plans for an
evaluation of the postcensal estimates and estimates developed using alternative methods relative to the Census
2010 results.

The Census Bureau’s target to meet or exceed the overall federal score of customer satisfaction on the
E-government ACSI was not met. The Census Bureau believes this is because visitors who enter Web sites
containing a wealth of information and who are not necessarily familiar with the data available tend to experience
more challenges ﬁnding the information they seek. In October 2009, the Census Bureau launched its newly
designed Web site and continues to expand its corporate look and feel across the site. It anticipates that these new
designs will make it easier for visitors to ﬁnd the information they seek.

Strategic Goal 2: 

Provide current measures of the U.S. population, economy, and governments 

(ESA/CENSUS)

The Census Bureau collects and disseminates a wide range of current demographic and economic information to
help decisionmakers and the public make informed decisions. The Census Bureau’s current economic statistics
program provides public and private data users with monthly, quarterly, and annual national statistical proﬁles of
the U.S. economy. Agencies like the Federal Reserve Board and the Bureau of Economic Analysis are major users of
these data. These data are used to develop the GDP, production indexes, and congressional economic projections.
Also, these data allow users to gauge competition, calculate operating ratios, analyze changes in the nation’s
economic structure, calculate market share, locate business markets, and design sales territories.

The Census Bureau’s current demographic statistics program provides elected oﬃcials and government and
business managers with reliable social and economic data to make informed and cost-eﬀective decisions. Data
from these programs are used to create oﬃcial U.S. measures of employment, unemployment, and poverty and
widely used measures of income and health insurance coverage. These programs include:

• 	 The Current Population Survey (CPS), which provides the oﬃcial source of monthly labor force estimates,
    quarterly housing vacancy estimates, and annual estimates of work experience, income, poverty, migration,
    and school enrollment. In FY 2009, the CPS also collected information on the “unbanked” population as part of
    the January supplement. CPS also enhanced its survey collection operations with the addition of the Contact
    History Instrument to help the Census Bureau’s Field Division staﬀ better target the best time to visit or call.

• 	 The Survey of Income and Program Participation (SIPP) is the major source of information on the economic
    well being of Americans over time. The data are used to estimate future costs and coverage for government
    programs and to provide detailed statistics on the distribution and source of income in the United States. In
    FY 2009, the Census Bureau completed the ﬁrst full year of data collection for a new panel of the SIPP, which
    began in September 2008.

• 	 Additionally, eﬀorts continued to improve data collection and processing systems to better meet the policy and
    operational needs of the country. In FY 2009, these eﬀorts included:

    • 	 Evaluation of the 2008 Event History Calendar (EHC) Paper Test, which continued by comparing the actual
        2004 SIPP responses, the EHC responses, and administrative records data.

    • 	 Development of the 2010 Field Test using the reengineered BLAISE EHC automated instrument, along with
        revising the SIPP processing system.

    • 	 Involvement of stakeholders in all aspects of the reengineering, with the Committee on National Statistics
        report released in July, in meetings of the American Statistical Association SIPP research group, and in
        presentations at conferences.


24 FY 2009 Performance and Accountability Report 	                                                     U.S. Census Bureau
                                                                                                  PERFORMANCE SECTION



  Performance Measure                      Target                          Actual                       Status

  Achieve predetermined collection         At least 90 percent of key      100 percent of key           Met
  rates for Census Bureau censuses         censuses and surveys            censuses and surveys
  and surveys in order to provide          meet/exceed collection          met collection rates
  statistically reliable data to support   rates/levels of reliability
  eﬀective decision-making of
  policymakers, businesses, and
  the public
  Release data products for key            (1) 100 percent of              (1) 100 percent of           Met
  Census Bureau programs on time to        economic indicators             economic indicators
  support eﬀective decision-making of      released on schedule            released on schedule
  policymakers, businesses, and            (2) At least 90 percent of      (2) 100 percent of other
  the public                               other data products from        data products from key
                                           key censuses and surveys        censuses and surveys
                                           released on schedule            released on schedule


FY 2009 Status
In FY 2009, the Census Bureau released nearly 400 economic reports, including 118 principal economic indicators.
Responses to censuses and surveys provide information on retail and wholesale trade and selected service
industries, construction activity, quantity and value of industrial output, capital expenditure, e-commerce sales,
foreign trade, and state and local government activities. All targeted current surveys programs achieved their
response rate targets for FY 2009.

During FY 2009, the Census Bureau began the process of expanding the annual and quarterly surveys of service
industries. Prior to the 2009 services expansion, the Service Annual Survey (SAS) coverage accounted for 30
percent of GDP and the Quarterly Services Survey (QSS) coverage comprised 17 percent of GDP. The SAS and the
QSS, as fully expanded, will each achieve matching coverage with the services portion of the economic census
(55 percent of GDP) by early 2011. In FY 2009, the ﬁrst wave of the QSS expansion reduced the gap in quarterly
data coverage by 50 percent while, at the same time, the Census Bureau completed preparatory steps for
completely eliminating the annual data coverage gap with next year’s collection of the 2009 SAS.

Also, during FY 2009, the Census Bureau completed the ﬁrst full year of a new SIPP Panel. The Census Bureau achieved
an 87.5 percent response rate for SIPP, which met the target level. The CPS also met its target level response rate in FY
2009. CPS achieved a 92.2 percent response rate. CPS also met all of its data release targets, disseminating 12 data
products and 5 supplement data products during the ﬁscal year.

The other Current Demographic Statistics programs also met their target response rates in FY 2009. Maintaining
high response rates is especially important because it is a key measure of quality for Census Bureau customers.

The Census Bureau met its targets to achieve at least 90 percent of the planned response rates and dissemination
targets for Census Bureau surveys. Response rates are a measure of the quality of survey data. Dissemination
targets are a measure of timeliness of the data. By meeting these targets, the Census Bureau is providing its users
with the high quality and timely data they need to make important policy decisions that help improve the nation’s
social and economic conditions.

The American Community Survey (ACS), which collects and tabulates long-form data every year throughout the
decade, achieved a 98.1 percent weighted response rate, using three modes of data collection (mail-out, telephone,
and personal interview). The ACS also released social and demographic data for all places with a population of
20,000 and larger for the second time.

The Boundary and Annexation Survey (BAS) program achieved an 86.9 percent response rate. The BAS is used to
update information about the legal boundaries and names of all governmental units in the United States.




U.S. Census Bureau                                                      FY 2009 Performance and Accountability Report 25
                                                  FINANCIAL SECTION




Financial Section                                 CENSR-24




U.S. Census Bureau   FY 2009 Performance and Accountability Report 27
                                                                                                   FINANCIAL SECTION




                                MESSAGE FROM THE CHIEF FINANCIAL OFFICER
                                The Census Bureau is proud to be the largest statistical agency of the federal
                                government. Our conduct of the 2010 Census will directly aﬀect how more than
                                $400 billion in federal funds is allocated to local, state, and tribal governments
                                each year.

                                To prepare for the 2010 Census, we have performed extensive planning,
                                development, testing, revising, and retesting of literally thousands of procedures
                                to assess the accuracy and eﬀectiveness of the decennial census operations
                                and to identify improvements that will enhance the eﬃciency and quality of
                                the 2010 Census. The data collection eﬀort for 2010 will provide new methods
                                and technology that will improve data timeliness and relevance as well as
                                improvements to increase accuracy.

                                 Included in this report are highlights of the Census Bureau’s performance and
detailed ﬁnancial information. It fulﬁlls the requirements of the Reports Consolidation Act of 2000, the Chief
Financial Oﬃcers Act, the Government Performance and Results Act, the Federal Managers’ Financial Integrity Act,
and the Government Management Reform Act.

We continue to improve our ﬁnancial controls and have restructured ﬁnancial operations to include new positions,
which have been ﬁlled with qualiﬁed staﬀ to conduct and support ﬁnancial reporting and ﬁnancial system
enhancements. We are developing strategies to retain and share the knowledge of our employees. Supporting
a highly skilled workforce also means ensuring that they have the tools needed to do their jobs well, including
accurate and timely ﬁnancial and management information, and secure and continuous computer systems.

Our ﬁnancial system of record, the Commerce Business System (CBS), assists the Census Bureau in providing
internal quality assurance. Initially, the system consisted of certain ﬁnancial management modules as mandated by
the Department of Commerce. Over time, additional Census Bureau–speciﬁc modules have been added to create
a cradle-to-grave ﬁnancial system for use by the entire agency, spanning applications from budget to accounting
with the individual applications that obligate funds (e.g., travel, procurement, training) in between. The result is a
complete Census Bureau administrative management system.

Responsibility for the ﬁnancial information presented rests with the Census Bureau’s management. We strive for
excellence and are strongly committed to eﬃciently collecting, recording, and processing ﬁnancial transactions to
provide timely, accurate ﬁnancial information in support of our customers. We are proud to report that in FY 2009
the Census Bureau received our ﬁrst unqualiﬁed audit opinion on the Balance Sheet as a stand-alone entity since
FY 2001. Our ﬁnancial statements are prepared in conformity with generally accepted accounting principles for the
federal government.

We are looking forward to continued success and improvements in 2010.




                                                  Ted A. Johnson,
                                                  Associate Director for Administration and
                                                   Chief Financial Oﬃcer
                                                  November 9, 2009




U.S. Census Bureau                                                   FY 2009 Performance and Accountability Report 29
FINANCIAL SECTION


PRINCIPAL FINANCIAL STATEMENTS
U.S. Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Consolidated Balance Sheet
As of September 30, 2009 and 2008
(In thousands)

                                                                           2009             2008
                                                                         Audited        Unaudited
ASSETS
Intragovernmental:
  Fund Balance With Treasury (Note 2)                                 $2,279,483          $705,041
  Accounts Receivable, Net (Note 3)                                       12,474             9,428
  Advances and Prepayments                                                13,548             8,635
Total Intragovernmental                                                2,305,505           723,104


  Accounts Receivable, Net (Note 3)                                         2,579            3,616
  Inventory, Materials and Supplies, Net (Note 4)                          45,242              335
  General Property, Plant and Equipment, Net (Note 5)                     141,710          115,807
  Advances and Prepayments                                                  1,239            7,019
TOTAL ASSETS                                                          $2,496,275         $849,881
Stewardship PP&E (Note 12)


LIABILITIES
Intragovernmental:
  Accounts Payable                                                       $24,694            $6,374
  Unearned Revenue                                                        82,944            88,904
  Accrued FECA Liability (Note 6)                                         12,952            11,360
  Other (Note 7)                                                           4,456             5,100
Total Intragovernmental                                                  125,046           111,738


 Accounts Payable                                                        102,188           55,007
 Actuarial FECA Liability (Note 6)                                        65,052           61,406
 Accrued Payroll and Annual Leave (Note 6)                               118,553           65,765
 Capital Leases                                                                0           16,669
 Unearned Revenue                                                          2,630            4,160
 Contingent Liabilities (Notes 6 and 9)                                    4,000            1,400
 Other (Note 7)                                                            7,947            1,881
TOTAL LIABILITIES                                                      $425,416          $318,026
Commitment and Contingencies (Note 9)


NET POSITION
 Unexpended Appropriations                                             $1,730,348         $348,004
 Cumulative Results of Operations                                         340,511          183,851
TOTAL NET POSITION                                                    $2,070,859         $531,855


TOTAL LIABILITIES AND NET POSITION                                    $2,496,275         $849,881




   The accompanying notes are an integral part of these statements.


30 FY 2009 Performance and Accountability Report                                    U.S. Census Bureau
                                                                                                     FINANCIAL SECTION


U.S. Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Consolidated Statement of Net Cost (Unaudited)
For the Years Ended September 30, 2009 and 2008 (Notes 10 and 11)
(In thousands)

                                                                                                 2009             2008
 Strategic Goal 1:
 Provide benchmark measures of the U.S. population, economy,
 and governments
 Program Cost                                                                               $2,548,395        $975,873
    Less: Earned Revenue                                                                             0               0
     Total Net Program Cost                                                                $2,548,395        $975,873

 Strategic Goal 2:
 Provide current measures of the U.S. population, economy,
 and governments
 Program Cost                                                                                 $377,743        $497,963
    Less: Earned Revenue                                                                      (238,281)       (243,930)
     Total Net Program Cost                                                                  $139,462        $254,033


 Total Entity
 Program Cost                                                                               $2,926,138      $1,473,836
    Less: Earned Revenue                                                                     (238,281)       (243,930)
 Net Cost of Operations                                                                    $2,687,857      $1,229,906




    The accompanying notes are an integral part of these statements.


U.S. Census Bureau                                                     FY 2009 Performance and Accountability Report 31
FINANCIAL SECTION


U.S. Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Consolidated Statement of Changes in Net Position (Unaudited)
For the Years Ended September 30, 2009 and 2008 (Note 13)
(In thousands)
                                                                            2009                2008


Cumulative Results of Operations
Beginning Balances                                                      $183,851           $131,333


Budgetary Financing Sources:
 Appropriations Used                                                   2,785,995          1,234,265


Other Financing Sources (Nonexchange)
 Transfers In/(Out) Without Reimbursement, Net                             (151)                   0
 Imputed Financing Sources From Costs Absorbed by Others                  58,673              48,159


Total Financing Sources                                                 2,844,517         1,282,424
Net Cost of Operations                                                (2,687,857)       (1,229,906)
Net Change                                                                156,660            52,518
Total Cumulative Results of Operations                                 $340,511          $183,851


Unexpended Appropriations:
Beginning Balance                                                       $348,004           $117,069


Budgetary Financing Sources:
 Appropriations Received                                                4,169,850         1,470,244
 Appropriations Transferred In/(Out), Net                                        0           (3,000)
 Other Adjustments                                                         (1,511)           (2,044)
 Appropriations Used                                                  (2,785,995)       (1,234,265)
 Total Budgetary Financing Sources                                     1,382,344           230,935
Total Unexpended Appropriations                                        1,730,348           348,004


Net Position                                                          $2,070,859          $531,855




   The accompanying notes are an integral part of these statements.


32 FY 2009 Performance and Accountability Report                                     U.S. Census Bureau
                                                                                                      FINANCIAL SECTION


U.S. Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Combined Statement of Budgetary Resources (Unaudited)
For the Years Ended September 30, 2009 and 2008
(In thousands)
                                                                                                  2009             2008
 BUDGETARY RESOURCES:
  Unobligated Balance, Brought Forward, October 1                                             $280,643         $160,906
  Recoveries of Prior Year Unpaid Obligations                                                   36,915           13,744
  Budget Authority
    Appropriations                                                                           4,169,850        1,470,244
    Spending Authority From Oﬀsetting Collections
      Earned
        Collected                                                                              765,402          676,034
        Change in Receivables From Federal Sources                                               1,792            1,529
    Changes in Unﬁlled Customers Orders
      Advance Received                                                                          (7,480)         (12,426)
      Without Advance                                                                          (11,968)            6,958
 Subtotal Budget Authority                                                                   4,917,596        2,142,339
 Nonexpenditure Transfers, Net                                                                        0          (3,000)
  Permanently Not Available                                                                     (1,511)          (2,044)
 TOTAL BUDGETARY RESOURCES                                                                 $5,233,643       $2,311,945

 STATUS OF BUDGETARY RESOURCES:
  Obligations Incurred
    Direct                                                                                  $3,351,242       $1,378,033
    Reimbursable                                                                               718,404          653,269
  Total Obligations Incurred                                                                 4,069,646        2,031,302
  Unobligated Balance
    Apportioned                                                                                924,897           93,630
    Exempt From Apportionment                                                                  230,120          180,110
  Total Unobligated Balance                                                                  1,155,017          273,740
  Unobligated Balance Not Available                                                              8,980            6,903
 TOTAL STATUS OF BUDGETARY RESOURCES                                                       $5,233,643       $2,311,945

 CHANGE IN UNPAID OBLIGATED BALANCE, NET:
   Unpaid Obligated Balance, Net, Brought Forward, October1
     Unpaid Obligations, Brought Forward                                                      $448,869         $275,924
     Less: Uncollected Customer Payments, Brought Forward                                       (24,550)         (16,062)
 Total Unpaid Obligated Balance, Net, Brought Forward                                           424,319          259,862
   Obligations Incurred                                                                       4,069,646        2,031,302
   Less: Gross Outlays                                                                      (3,351,809)      (1,844,613)
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                                    (36,915)         (13,744)
   Change in Uncollected Customer Payments                                                        10,176          (8,488)
  Total Unpaid Obligated Balance, Net, End of Period                                       $1,115,417         $424,319


 Unpaid Obligated Balance, Net, End of Period
   Unpaid Obligations                                                                        1,129,791          448,869
   Less: Uncollected Customer Payments                                                         (14,374)        (24,550)
 TOTAL UNPAID OBLIGATED BALANCE, NET, END OF PERIOD                                        $1,115,417         $424,319

 NET OUTLAYS:
  Gross Outlays                                                                             $3,351,809       $1,844,613
  Less: Oﬀsetting Collections                                                                (757,922)        (663,608)
 NET OUTLAYS                                                                               $2,593,887       $1,181,005
    The accompanying notes are an integral part of these statements.


U.S. Census Bureau                                                     FY 2009 Performance and Accountability Report 33
FINANCIAL SECTION


NOTES TO THE FINANCIAL STATEMENTS
(All tables are presented in thousands)

Note 1. Summary of Signiﬁcant Accounting Policies

Reporting Entity
The Census Bureau is a component entity of the Economics and Statistics Administration, under the Department
of Commerce (DOC). All Census Bureau funding is under the Commerce and Housing Credit budget functional
classiﬁcation. The Census Bureau collects and provides high-quality statistics about the American people and economy.
To deliver high value, the Census Bureau must target measurements on those trends and segments of the population
and economy most critical to continued American success and prosperity. The Congressional Act of March 6, 1902,
established a Census Bureau and provides for various surveys and censuses. Title 13 of the U.S. Code regulates laws
pertaining to the Census Bureau’s statistical programs and ensures conﬁdentiality of data. Section 401 of Executive
Order 12656 directs the Secretary of Commerce to provide for the collection and reporting of census information on
human and economic resources and to maintain a capability to conduct emergency surveys to provide information on
the status of these resources as required for national security emergencies.

Budgets and Budgetary Accounting
To support the mission, the Census Bureau uses ﬁnancial resources from the following:

Salaries and Expenses (S&E) Appropriation
Annual 1-year appropriations are provided by Congress and are available for obligation in the ﬁscal year for which
they are provided to fund many of the current surveys and other statistical services of the Census Bureau that are
conducted each year.

Periodic Censuses and Programs (PCP) Appropriation
Congress provides 2-year appropriations to fund the decennial census conducted every 10 years; the economic
censuses and the census of governments, which are conducted every 5 years; and other programs.

American Recovery and Reinvestment Act (ARRA)
The ARRA is an economic stimulus package estimated at $787 billion that was implemented by proposals from
President Barack Obama and enacted by Congress in February 2009. The ARRA includes programs consisting of an
expansion of unemployment beneﬁts, domestic spending in education, health care, and infrastructure including
the energy sector, to name a few. The ARRA provided $1 billion to help the Census Bureau conduct a successful
2010 Census.

Working Capital Fund (WCF)
This is a nonappropriated account used to ﬁnance services within the Census Bureau. These services are more
eﬃciently performed on a centralized basis and include reimbursable statistical work the Census Bureau performs
for other federal agencies, state and local governments, foreign governments, and the private sector.

Census Programs
The Census Bureau is the largest statistical agency of the federal government. While best known for the decennial
census, the Census Bureau conducts other surveys and censuses that measure changing individual and household
demographics and economic conditions of the United States. Major program functions and activities include:

Decennial Census
The decennial census is authorized by Article 1, Section 2, of the U.S. Constitution. The decennial census is the
nation’s oldest and most comprehensive source of population and housing information. The decennial program
consists of the:

• 	 2010 Census—which provides the oﬃcial population counts for the United States.

• 	 American Community Survey—which collects long-form data (detailed characteristics) every year throughout
    the decade using a large household survey.



34 FY 2009 Performance and Accountability Report 	                                                     U.S. Census Bureau
                                                                                                      FINANCIAL SECTION


• 	 MAF/TIGER® (Master Address File/Topologically Integrated Geographic Encoding and Referencing) Enhancement
    Program—which works with private and public sectors to modernize and enhance the accuracy of the nation’s
    road map.

Decennial census data provide the basis for apportioning among the states the seats in the U.S. House of
Representatives and for developing the districts for those members of Congress and state legislatures. Census
2010 will be the largest in America’s history.

Economic Programs
Economic programs produce information critical to the economic functioning of the United States and its citizens.
Current data, such as housing starts, retail sales, wholesale trade, merchandise imports and exports, mining, and
manufacturing, are collected each month. Data from the economic census and census of governments, which are
conducted once every 5 years, provides comprehensive, detailed, and authoritative facts about the structure and
function of the U.S. economy and its public sector.

Demographic Programs
Important demographic eﬀorts include the preparation of oﬃcial population estimates and projections, plus the
collection of survey data for oﬃcial statistics on income and poverty, families, race and ethnic groups, and the
nation’s housing characteristics.

Reimbursable Programs
Reimbursable programs receive funds from private-sector businesses and from public-sector entities, such as the
Departments of Labor, Health and Human Services, Housing and Urban Development, and Justice, in exchange for
the Census Bureau’s survey and data collection services.

Other Programs
Other programs include Geographic Support, Data Processing Systems, Demographic Surveys Sample Redesign,
and Intercensal Demographic Estimates.

Basis of Accounting and Presentation
The Census Bureau’s ﬁscal year ends September 30. The Census Bureau records accounting transactions on both the
accrual and budgetary basis of accounting. Under the accrual method, revenues are recognized when earned, and
expenses are recognized when a liability is incurred, without regard to receipt or payment of cash. Budgetary accounting
is exclusive to the federal government. Its purpose is to record the status of appropriations and appropriation receipts,
allocate budget authority, record valid obligations, and control the use of budgetary resources. Budgetary accounting
facilitates compliance with legal constraints and controls over the use of federal funds.

The ﬁnancial statements are prepared from the accounting records of the Census Bureau in accordance with the
U.S. Generally Accepted Accounting Principles (GAAP) and the form and content for entity ﬁnancial statements
speciﬁed by the Oﬃce of Management and Budget (OMB) Circular No. A-136, Financial Reporting Requirements,
as well as the accounting policies of the Census Bureau. In addition, the Census Bureau continues to adhere to
its current business practices as well as the current accounting policies. Therefore, Census Bureau policies and
procedures may diﬀer from other ﬁnancial reporting requirements submitted pursuant to OMB Circular No. A-136
or the purpose of monitoring and controlling the use of the Census Bureau’s budgetary resources. GAAP for federal
entities are the principles prescribed by the Federal Accounting Standards Advisory Board, which is the oﬃcial
standard-setting body of the federal government.

Elimination of Intra-Census Transactions and Balances
All signiﬁcant intra-Census transactions and balances among Census Bureau funds have been eliminated from the
Census Bureau ﬁnancial statements.

Revenues and Other Financing Sources
The Census Bureau receives the funding needed to support its programs through appropriations. Both annual and
multiyear appropriations are received and used, within statutory limits, for operating and capital expenditures.
Additional resources are obtained through the collection of amounts from reimbursable programs performed for
other governmental and nongovernmental entities.



U.S. Census Bureau 	                                                   FY 2009 Performance and Accountability Report 35
FINANCIAL SECTION


Appropriations are recognized as revenue at the time the related program or administrative expenses are incurred.
The consumption of appropriations used to purchase property and equipment is recognized when the purchases
are made.

The Census Bureau also receives some ﬁnancial gifts and gifts-in-kind. All such transactions are included in the
consolidated Gifts and Bequests Fund ﬁnancial statements of the DOC. These gifts are not of signiﬁcant value and
are not reﬂected in the Census Bureau’s ﬁnancial statements. Most gifts-in-kind are used for oﬃcial travel to further
attain the Census Bureau’s mission and objectives.

Appropriations. Through congressional appropriations, the Census Bureau is provided ﬁnancing sources for its
programs. The funds are warranted by the U.S. Department of Treasury and apportioned by the OMB.

Recoveries. Funds are authorized by the OMB’s Letter of Apportionment to expend recoveries from prior-years’
obligations.

Reimbursements. Reimbursements are authorized in various appropriations based on the Letter of
Apportionment.

Imputed Financing Sources. In accordance with federal GAAP, certain expenses should be reported by agencies
whether or not these expenses would be paid by the agency that incurs the expense. The Census Bureau’s
imputed expenses are for health care, life insurance, and pension plans for employees, which will be paid by the
Department of Labor. Expenses are recorded at year-end for losses in litigation proceedings against the Census
Bureau. The Census Bureau recognizes losses paid by the Treasury Judgment Fund as an imputed ﬁnancing source.

Assets
Assets deﬁned as Entity Assets, such as Fund Balance With Treasury, Property and Equipment, and Accounts
Receivable, are available for use in Census Bureau operations. Most of the Census Bureau’s assets are Entity Assets
and are available to carry out the mission of the Census Bureau, as appropriated by Congress.

Nonentity Assets are assets for which an agency has ﬁduciary responsibility and are not available for use in the agency’s
operations. Nonentity Assets consist of suspense deposit funds and miscellaneous receipts that are not available to
ﬁnance the Census Bureau activities. These activities were included in Nonentity Assets for FY 2008, but starting in
FY 2009, per OMB Circular No. A-136, Section II.4.9.1, these activities are no longer recognized on the proprietary
ﬁnancial statements. Fiduciary Cash and other assets are not assets of the federal government and accordingly are not
recognized on the balance sheet. The Census Bureau ﬁduciary activity is not of a signiﬁcant amount.

Fund Balance With U.S. Treasury
Funds with the U.S. Treasury consist of appropriated and deposited funds that are available to pay current liabilities
and ﬁnance authorized purchase commitments. The Treasury processes cash receipts and disbursements. The
Census Bureau does not maintain cash in commercial bank accounts.

Accounts Receivable, Net of Allowance
Accounts Receivable are recognized primarily when the Census Bureau performs reimbursable services or sells
goods. Accounts Receivable are reduced to net realizable value by an Allowance for Uncollectible Accounts. This
allowance is calculated quarterly using methods such as the identiﬁcation of speciﬁc delinquent receivables and
the analysis of aging schedules and historical trends adjusted for current market conditions.

The amounts due for public receivables are stated net of an allowance for uncollectible amounts. This allowance
is based on an analysis of the outstanding balances. No allowance for uncollectible accounts is recognized for
intragovernmental accounts receivable because these accounts are due from other federal agencies and are
deemed to be fully collectible.

The Census Bureau also records as accounts receivable amounts due from the public for employees’ indebtedness,
such as salary overpayments and health beneﬁts. Accounts receivable due from the public also include amounts
owed by state and local governments and nonproﬁt organizations that are not allowed to pay for services in advance.




36 FY 2009 Performance and Accountability Report                                                          U.S. Census Bureau
                                                                                                  FINANCIAL SECTION


Advances and Prepayments
Advances are payments the Census Bureau has made to cover a part or all of the cost of goods and services to
be acquired. Although payment has been made, the expense is not recorded until goods have been received
or services have been performed. The Census Bureau has prepayments and advances with public, as well as
intragovernmental, vendors.

Inventory
Inventory is comprised of employment forms, payroll forms, various other administrative forms, and training and
production materials. The inventory is stated at historical cost and is adjusted for changes related to consumption
and acquisition. Inventory is consumed on a ﬁrst-in, ﬁrst-out basis and is used entirely at the discretion of the
Census Bureau without restriction.

General Property, Plant and Equipment
The General Services Administration provides the land and buildings that the Census Bureau operates in and charges
the Census Bureau a standard level users charge that approximates the commercial rental rates for similar properties.

Capitalization Thresholds. An asset purchased for $25 thousand or more with a useful life of at least 2 years is
recorded as a capital asset and depreciated/amortized over its estimated economic useful life. An asset purchased
for less than the capitalization threshold will be expensed when purchased. Similar items purchased in bulk that
are individually below $25 thousand are capitalized when the total purchase is $250 thousand or more.

Internal Use Software. The Census Bureau records Internal Use Software (IUS) according to the SFFAS No.10,
Accounting for Internal Use Software. IUS includes software that is commercial oﬀ-the-shelf (COTS) purchased,
contractor developed, or developed in-house by federal employees. The Census Bureau records COTS costs as
PP&E. The Census Bureau also records COTS costs as IUS in development where costs are accumulated as work in
progress until ﬁnal acceptance testing has been successfully completed. Once completed, the costs are transferred
to PP&E, with amortization expense recognized on a monthly basis.

Leasehold Improvements. Leasehold improvements are expenditures relating to the alteration or modernization
of a leased asset that appreciably broadens the asset’s period of usefulness or improves its functionality. The
improvement is depreciated over the life of the lease.

Construction in Progress (CIP). CIP refers to the temporary classiﬁcation of assets that are being built/
assembled before being placed in service. The Census Bureau accumulates the costs associated with improvements
to leased property in the CIP account until the improvement is completed and is placed in service.

Liabilities
Liabilities represent the amount of money or other resources that are scheduled to be paid by the Census Bureau as
the result of transactions or events that have occurred. Liabilities for which an appropriation has not been enacted
are classiﬁed as unfunded liabilities.

All expenses and related accrued liabilities are recorded and reported whether or not amounts are funded.
Appropriation law, however, prohibits federal agencies from obligating or spending funds for which appropriations
have not been authorized. In order to comply with the above requirements and to provide accountability for
unfunded expenses anticipated to be funded by future appropriations, the amounts for current unfunded expenses
are reported in the Statement of Net Cost, and related liabilities are included in the Balance Sheet.

Unearned Revenue
Intragovernmental Unearned Revenue includes advances from federal agencies for goods and/or services that have
not yet been provided. Unearned Revenue with the public is comprised mostly of unﬁnished work for state and
local governments, nonproﬁt organizations, and universities.

Accrued Payroll and Annual Leave
Accrued Payroll and Beneﬁts represent salaries, wages, and beneﬁts earned by the employees, but not disbursed
as of September 30. The intragovernmental employees’ beneﬁts accrued are future retirement and social security
beneﬁts payable to other federal agencies, not to the employees.




U.S. Census Bureau                                                  FY 2009 Performance and Accountability Report 37
FINANCIAL SECTION


Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the balance in the
accrued annual and compensatory leave account is adjusted to reﬂect current leave balances and pay rates. To the
extent current or prior-year appropriations are not available to fund annual leave earned but not taken, funding will
be obtained from future ﬁnancing sources. Sick leave and other types of nonvested leave are expensed as taken.

Federal Employees’ Compensation Act (FECA) Liability
FECA provides income and medical cost protection to covered federal civilian employees injured on the job,
employees who have incurred a work-related occupational disease, and beneﬁciaries of employees whose death is
attributable to a job-related injury or occupational disease. Claims incurred for beneﬁts for Census Bureau employees
under FECA are administered by the Department of Labor (DOL) and are ultimately paid by the Census Bureau.

FECA liability represents the accrued liability, which represents money owed for claims paid, and the actuarial
liability, which represents the expected future liability for approved compensation claim cases.

Future workers’ compensation estimates were generated from an application of actuarial procedures developed
to estimate the liability for FECA beneﬁts. The liability for future workers’ compensation beneﬁts includes the
expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases. The
liability is determined utilizing historical beneﬁt payment patterns related to a speciﬁc period to estimate the
ultimate payments related to that period.

Employee Retirement Plans
Most employees of the Census Bureau participate in either the Civil Service Retirement System (CSRS) or Federal
Employees’ Retirement System (FERS) deﬁned-beneﬁt pension plans. FERS was established by the enactment of
Public Law 99-335. Pursuant to this law, FERS and social security automatically cover most employees hired after
December 31, 1983. Employees who had 5 years of federal civilian service prior to 1984 and who are rehired after
a break in service of more than 1 year may elect to join the FERS and social security system or be placed in the
CSRS oﬀset retirement system.

The Thrift Savings Plan (TSP) is a retirement savings and investment plan for employees covered by either FERS or
CSRS. The Census Bureau makes a mandatory contribution of 1 percent of basic pay for FERS-covered employees.
In addition, the Census Bureau makes matching contributions of up to 5 percent of basic pay for employees who
contribute to the TSP. The maximum amount that either FERS or CSRS employees may contribute to the plan in
calendar year 2009 is $22 thousand. This amount consists of the maximum amount of $16.5 thousand that all
employees may contribute and an additional “catch-up” amount of $5.5 thousand that employees who are 50
years or older may contribute. The sum of employee and Census Bureau contributions is transferred to the Federal
Retirement Thrift Investment Board to administer.

The Census Bureau ﬁnancial statements do not report CSRS or FERS assets, accumulated plan beneﬁts, or unfunded
liabilities, if any, which may be applicable to Census Bureau’s employees and funded by Census Bureau. Such
reporting is the responsibility of the U.S. Oﬃce of Personnel Management.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, and OMB Circular No. A-136, Financial Reporting
Requirements, require federal entities to recognize an expense for pension and other retirement beneﬁts at the
time employees’ services are rendered.

Net Position
The Census Bureau’s net position at September 30, 2009 and 2008, consisted of the following:

Unexpended Appropriations. Unexpended appropriations include appropriations not yet obligated or expended,
represented by the unobligated balances, and undelivered orders of the Census Bureau’s appropriated funds.
Multiyear appropriations remain available to the Census Bureau for obligation in future periods. Unobligated
balances associated with an appropriation that expires at the end of the ﬁscal year remain available for obligation
adjustments, but not new obligations, until that account is closed; ﬁve years after the appropriation expires.

Cumulative Results of Operations. Cumulative results of operations at September 30, 2009 and 2008, include
the accumulated diﬀerence between expenses consuming budgetary resources and ﬁnancing sources providing
budgetary resources during the current and prior ﬁscal years; the Census Bureau’s investment in capitalized assets,
which increases as capital assets are acquired and decreases as capital assets are depreciated or disposed of; and


38 FY 2009 Performance and Accountability Report                                                       U.S. Census Bureau
                                                                                                    FINANCIAL SECTION


the excess of certain liabilities not consuming budgetary resources, net of certain assets not providing budgetary
resources, whose liquidation will require obligation of funds and may require funding from future congressional
appropriations or other budgetary resources.

Use of Estimates. The preparation of ﬁnancial statements in accordance with GAAP requires management to
make estimates and assumptions that aﬀect the amounts reported in the ﬁnancial statements and accompanying
footnotes. Actual results could diﬀer from those estimates.

Note 2. Fund Balance With Treasury
The U.S. Treasury processes the Census Bureau’s cash receipts and disbursements. Nonfederal receipts are
deposited daily in commercial banks and the Federal Reserve Bank, which transfer the receipts to the U.S. Treasury.
Funds with the U.S. Treasury represent appropriated and reimbursable funds available to ﬁnance expenditures.
Included in the Fund Balance With Treasury are entity deposit funds for unﬁnished reimbursable work with other
federal agencies and the public. Other funds include nonentity deposit funds, which are funds that are not
available to ﬁnance the Census Bureau activities.

                                                             2009             2008
                                                           Audited        Unaudited
 Fund Balance:
  General Funds                                          $1,902,897         $420,511
  Revolving Funds                                           376,518          284,452
  Other Fund Types                                               68               78
 Total                                                  $2,279,483         $705,041


 Status of Fund Balance With Treasury
  Unobligated Balance
    Available                                            $1,155,017         $273,740
    Unavailable                                               8,980            6,903
  Obligated Balance Not Yet Disbursed                     1,115,418          424,320
  Non-Budgetary                                                  68               78
 Total                                                  $2,279,483         $705,041




Note 3. Accounts Receivable, Net
The Census Bureau maintains an accounts receivable subsidiary ledger for amounts due for goods and services
provided to other federal agencies, the public, and foreign entities. In addition, the Department of Agriculture,
National Finance Center (NFC), maintains an accounts receivable subsidiary ledger on behalf of the Census Bureau
for salary overpayments, health beneﬁts, and other indebtedness of most current and noncurrent employees. The
NFC receivables include current receivables billed to employees and in the process of repayment as well as unbilled
receivables that will not be billed until the employee returns to active status and a salary oﬀset is initiated.
                                                                          Net Accounts Receivable

                                               Gross                            2009           2008
                                            Accounts                          Audited      Unaudited
                                           Receivable       Allowance           Total          Total
 Intragovernmental                            $12,474              $0         $12,474         $9,428
 Subtotal                                      12,474               0          12,474          9,428


 With the Public                               2,585                (6)         2,579          3,616
 Total                                       $15,059              ($6)        $15,053        $13,044


The Census Bureau estimates the allowance for uncollectible accounts receivable with the public through
systematic methodology in accordance with SFFAS No.1, Paragraph 46, Accounting for Selected Assets and
Liabilities, based on historical collection information.



U.S. Census Bureau                                                    FY 2009 Performance and Accountability Report 39
FINANCIAL SECTION


Note 4. Inventory
The Census Bureau handles all functions related to the tracking and management of inventory, materials and
supplies. This would include the monitoring of material moved into and out of stockroom locations and the
reconciling of the inventory balances. Inventory at the Census Bureau represents goods and materials held
available in stock and not intended for sale.
                                                                                     2009            2008
Inventory                              Cost Flow Assumption                       Audited        Unaudited
Materials for Use                              First-in, ﬁrst-out                 $50,183            $186
Postal Meter                                   First-in, ﬁrst-out                       85             149
Allowance                                                                          (5,026)               0
Total Inventory                                                                   $45,242            $335




Note 5. General Property, Plant and Equipment, Net
The Census Bureau owns property and equipment that are essential to its operations. Property and equipment are
capitalized and depreciated/amortized over the useful life of the asset and are applied on a straight-line basis. In
establishing useful lives for assets, due consideration is given to the Census Bureau's actual prior experiences on
the replacement of similar assets. Information regarding the method of depreciation and the useful life is provided
in the schedule below:

                                                Useful                                   Accumulated         Net Book Value
                                                  Life              Acquisition         Depreciation/                 2009
                                               (Years)                   Value          Amortization                Audited

 Other Personal Property                            3–5               $119,258                 ($84,021)            $35,237
 Leasehold improvements                            5–20                  5,434                   (1,241)              4,193
 Construction in Progress                            NA                 14,245                         0             14,245
 Internal Use Software                              3–5                110,594                  (70,990)             39,604
 Internal Use Software in Progress                   NA                 48,431                         0             48,431
 Assets Under Capital Lease                           3                      0                         0                  0
 Total                                                               $297,962                ($156,252)            $141,710



                                                Useful                                   Accumulated         Net Book Value
                                                  Life              Acquisition         Depreciation/                 2008
                                               (Years)                   Value          Amortization                Audited

 Other Personal Property                            3–5               $101,453                 ($86,830)             $14,623
 Leasehold improvements                            5-20                  4,590                     (711)               3,879
 Construction in Progress                            NA                  8,765                                         8,765
 Internal Use Software                              3–5                 93,455                  (61,279)              32,176
 Internal Use Software in Progress                   NA                 41,111                                        41,111
 Assets Under Capital Lease                           3                 18,864                   (3,611)              15,253
 Total                                                               $268,238                ($152,431)            $115,807




40 FY 2009 Performance and Accountability Report                                                              U.S. Census Bureau
                                                                                                  FINANCIAL SECTION


Note 6. Liabilities Not Covered by Budgetary Resources
Liabilities not covered by budgetary resources result from the receipt of goods and services, or the occurrence of
events, for which budgetary resources are not available.

Accrued FECA liability represents Census Bureau claims paid by the Department of Labor from the Employees’
Compensation Fund for the period of July 1, 2007, through September 30, 2009.

Accrued payroll, beneﬁts accrued payroll, and beneﬁt costs are earned by and owed to employees but unpaid as
of year-end. Accrued payroll and beneﬁt costs represent current liabilities. Census employees that are paid by the
NFC are paid on a biweekly basis with a 2-week delay. The Census Bureau accrued payroll costs for the period of
September 13, 2009, through September 26, 2009, and the last 4 days of September 2009. Decennial Applicant
Personnel and Payroll System (DAPPS) payroll is expended on a weekly basis. NFC payroll accrued at September 30,
2009, includes beneﬁts that the Census Bureau pays to U.S. Oﬃce of Personnel Management for the Thrift Savings
Plan and to the Social Security Administration, in addition to the amounts paid to employees. Census Bureau
temporary employees working for the ﬁeld decennial are paid by the DAPPS payroll system.

Actuarial FECA liability represents the estimated liability for future workers’ compensation beneﬁts, which includes
the expected liability for death, disability, medical, and miscellaneous cost for approved compensation cases.

Accrued annual leave represents annual leave that is accumulated as it is earned. The accrued annual leave balance
is only reduced as leave is taken.

Contingent liabilities represent the estimated liability for suits against the Census Bureau where an adverse
outcome is probable and measurable.

                                                            2009             2008
                                                          Audited        Unaudited
 Intragovernmental:
   Accrued FECA Liability                                  $12,952          $11,360
 Total Intragovernmental                                  $12,952          $11,360

 With the Public
  Accrued Annual Leave                                     $48,331          $39,999
  Actuarial FECA Liability                                  65,052           61,406
  Contingent Liabilities                                     4,000            1,400
 Total Liabilities Not Covered by Budgetary Resources     $130,335         $114,165
 Total Liabilities Covered by Budgetary Resources         $295,081         $203,861
 Total Liabilities                                       $425,416         $318,026




U.S. Census Bureau                                                   FY 2009 Performance and Accountability Report 41
FINANCIAL SECTION


 Actuarial FECA Liability:
 Actuarial FECA liability is calculated annually, as of September 30. For discounting projected annual future beneﬁt payments to
 present value, the interest rate assumptions used by U.S. Department of Labor (DOL) were as follows:

                                                     FY 2009             FY 2008
 Year 1                                              4.22%               4.37%
 Year 2 and Thereafter                               4.72%               4.77%

 The wage inﬂation factors (Cost of Living Allowance) and medical inﬂation factors (Consumer Price Index—Medical) applied
 to the calculation of projected future beneﬁts, and also used to adjust the methodology’s historical payments to current year
 constant dollars, were as follows:

                                FY 2009
                                                     Cost of Living      Consumer Price
                                                     Allowance           Index—Medical
 Fiscal Year
 2010                                                0.47%               3.42%
 2011                                                1.40%               3.29%
 2012                                                1.50%               3.48%
 2013                                                1.80%               3.71%
 2014                                                2.00%               3.71%

                                FY 2008
                                                     Cost of Living      Consumer Price
                                                     Allowance           Index—Medical
 Fiscal Year
 2009                                                3.87%               4.00%
 2010                                                2.73%               3.86%
 2011                                                2.20%               3.87%
 2012                                                2.23%               3.93%
 2013                                                2.30%               3.93%




42 FY 2009 Performance and Accountability Report                                                                   U.S. Census Bureau
                                                                                                  FINANCIAL SECTION


Note 7. Other Liabilities
Other liabilities include measurable and probable expected future outﬂows of resources resulting from past
transactions or events, and the estimated cost of conditions, situations, or circumstances that will be resolved in
the future. “Other Liabilities” represent amounts not otherwise classiﬁed to speciﬁc liability accounts.

Employer Contribution and Payroll Taxes. This is the Census Bureau’s portion of payroll taxes and beneﬁt
contributions, such as health and life insurance for covered employees and retirement, including the agency’s
contribution to the Thrift Savings Plan.

Withholdings Payable. This is the amount withheld from employees’ salaries for taxes, employee beneﬁt
contributions, wage garnishments, and other withholdings.
                                                       Total Other Liabilities
 Liabilities Covered by Budgetary Resources—               2009              2008
 Current                                                 Audited         Unaudited


 Intragovernmental
 Employer Contributions and Payroll Taxes                  $4,456            $5,100
 Total Intragovernmental                                    4,456             5,100


 With the Public
 Employer Contributions and Payroll Taxes                  7,947             1,874
 Withholdings Payable                                          0                 7
 Total                                                   $12,403            $6,981




U.S. Census Bureau                                                  FY 2009 Performance and Accountability Report 43
FINANCIAL SECTION


Note 8. Leases
The Census Bureau has commitments under Occupancy Agreements (OAs) with the General Services Adminstration
(GSA) for the majority of its leases. GSA leases are either federally owned or federally leased. The rent for federally
owned space and leased commercial space is based upon similar components, but diﬀerent principles. In federally
owned space, rent is appraisal-based, with other applicable charges. In leased commercial space, rent is a direct
pass through of the underlying GSA lease contract. The majority of the Census Bureau rental space, such as the
regional oﬃces, is housed in GSA leased space. The Census Bureau has unique operating space needs, usually
during decennial, for which space is rented directly by the Census Bureau under its delegated authority. The
OA confers upon the Census Bureau the right to occupy space for a speciﬁc period of time. The GSA fee for the
brokerage and other services provided to the Census Bureau is a ﬂat 8 percent of the annual lease contract plus the
cost of separately contracted services. Charges for operating expenses, joint use space, parking, and real estate
taxes may be adjusted on an annual basis. Space in federal buildings is appraised every 5 years. Census Bureau
leases are 10-year leases with 5- to 10-year ﬁrm terms. In this case, all tenant improvement costs incurred to build
out the space to agency speciﬁcations will be amortized during the lease-term. While the OA addresses ﬁnancial
terms that cover multiple years, the Census Bureau may relinquish the space with a 120-day notice.

Future lease payments are generally calculated based on the GSA annual rental rate adjustments for operating
costs and real estate taxes.
Operating Lease
                                                             2009             2008
Expenses                                                 Unaudited        Unaudited
Space Rentals
 GSA                                                        $74,100          $22,546
Commercial Rentals                                                8                8
Total                                                      $74,108          $22,554



Future Payments Due
Fiscal Year                                   GSA      Commercial              Total


2010                                      $74,612              $10          $74,622
2011                                       62,847               10           62,857
2012                                       57,948               10           57,958
2013                                       46,273               10           46,283
2014                                       46,273               10           46,283
Thereafter                                      0                0                0
Total                                   $287,953               $50        $288,003


Note 9. Commitments and Contingencies
Commitments
In addition to the future lease commitments discussed in Note 8, the Census Bureau is obligated for the purchase
of goods and services that have been ordered, but not yet received. Total undelivered orders for all of the Census
Bureau activities were $935.1 million and $353.7 million as of September 30, 2009 and 2008, respectively.

Contingencies
The Census Bureau is party to various routine administrative proceedings, legal actions, and claims brought by or
against it. It is the opinion of the Census Bureau management and legal counsel that the ultimate resolution of these
proceedings, actions, and claims will not materially aﬀect the ﬁnancial position or net costs of the Census Bureau.

The Census Bureau is subject to suits where an adverse outcome is probable. The range of loss for these suits is
between $200 thousand and $4 million. Accordingly, $4 million and $1.4 million was accrued on the Balance Sheet
as of September 30, 2009 and 2008, respectively. Certain legal judgments against the Census Bureau are paid for in
full from the Judgment Fund maintained by Treasury. Once the claims are settled or court judgments are assessed



44 FY 2009 Performance and Accountability Report                                                        U.S. Census Bureau
                                                                                                    FINANCIAL SECTION


against the Census Bureau, the liability will be removed from the ﬁnancial statements and an “other ﬁnancing
source” (representing the amount to be paid by the Judgment Fund) will be recognized.

The Census Bureau is party to other suits, with claim amounts of approximately $1 million as of September 30,
2009. In addition, there are other suits with no claim amounts. For all of these suits, it is reasonably possible that
an adverse outcome will result. However, it is not possible to estimate a range of loss. Of these claims, all were or
had a high probability of being funded by Treasury’s Judgment Fund.

Note 10. Intragovernmental Cost and Exchange Revenue (Unaudited)
Earned revenue in reimbursable programs collected by the Census Bureau represent amounts collected, primarily
from other federal agencies, for work completed on a reimbursable basis. The majority of the reimbursable
agreements are based on preliminary cost estimates; therefore earned revenue is reﬂective of cost incurred.
Intragovernmental expenses relate to source of goods or services.

Total intragovernmental costs and exchange revenue, by strategic goal, for the years ended September 30, 2009
and 2008, were as follows:
                                                                               2009             2008
 Strategic Goal 1: Provide benchmark measures of the
 U.S. population, economy, and governments
  Intragovernmental Cost                                                   $420,184         $211,006
  Public Cost                                                              2,128,211         764,867
    Total Program Cost                                                    2,548,395         975,873


   Intragovernmental Earned Revenue                                               0                0
   Public Earned Revenue                                                          0                0
     Total Program Revenue                                                        0                0
     Net Program Cost                                                    $2,548,395         $975,873


 Strategic Goal 2: Provide current measures of the
  U.S. population, economy, and governments
  Intragovernmental Cost                                                     $90,148        $128,874
  Public Cost                                                                287,595         369,089
    Total Program Cost                                                      377,743         497,963


   Intragovernmental Earned Revenue                                        (233,225)         (229,883)
   Public Earned Revenue                                                     (5,056)          (14,047)
     Total Program Revenue                                                (238,281)         (243,930)
     Net Program Cost                                                     $139,462          $254,033


 Total Entity
  Program Cost                                                            $2,926,138       $1,473,836
  Less: Earned Revenue                                                     (238,281)        (243,930)
 Net Program Cost                                                        $2,687,857       $1,229,906




U.S. Census Bureau                                                   FY 2009 Performance and Accountability Report 45
FINANCIAL SECTION


Note 11. Statement of Net Cost by Major Programs (Unaudited)
The following table further illustrates the Census Bureau’s Statement of Net Cost by Major Programs. 

The “Working Capital Fund” category refers to the smaller programs that make up the total Census Bureau 

program activity.
                                                                           2009            2008
Strategic Goal 1: Provide benchmark measures of the
U.S. population, economy, and governments
  Decennial Censuses
     Gross Costs                                                      $2,520,945        $975,873
     Less: Earned Revenue                                                      0               0
    Net Program Costs                                                 2,520,945         975,873
  Recovery Act Programs
     Gross Costs                                                         27,450               0
     Less: Earned Revenue                                                     0               0
    Net Program Costs                                                    27,450               0
    Net Program Costs for Strategic Goal 1                           $2,548,395        $975,873


Strategic Goal 2: Provide current measures of the
U.S. population, economy, and governments
  Demographic Programs
     Gross Costs                                                         $32,323         $30,274

     Less: Earned Revenue                                                      0               0

    Net Program Costs                                                     32,323          30,274
  Economic Programs
     Gross Costs                                                         $69,982         $69,962

     Less: Earned Revenue                                                      0               0

    Net Program Costs                                                     69,982          69,962
  Working Capital Fund
     Gross Costs                                                          275,438         397,727

     Less: Earned Revenue                                               (238,281)       (243,930)

    Net Program Costs                                                      37,157        153,797 

    Net Program Costs for Strategic Goal 2                             $139,462        $254,033



Total Entity
 Program Cost                                                         $2,926,138      $1,473,836 

 Less: Earned Revenues                                                 (238,281)      ($243,930)

Net Cost of Operations                                               $2,687,857      $1,229,906




46 FY 2009 Performance and Accountability Report                                                     U.S. Census Bureau
                                                                                                   FINANCIAL SECTION


Note 12. Stewardship PP&E
The Census Bureau’s stewardship PP&E consists only of Heritage Assets. Heritage Assets are unique for their historical
or natural signiﬁcance; for their cultural, educational, or artistic importance; or for their signiﬁcant architectural
characteristics. These items consist of equipment, books, artifacts, and plaques that are unique to the Census Bureau
or have had a signiﬁcant impact on accomplishing the mission of the Census Bureau. They reﬂect the Census Bureau’s
historic contribution to the nation’s growth and well-being and demonstrate milestones achieved throughout history.

The Census Bureau’s property management oﬃcer ensures all Heritage Assets are catalogued and stored in a safe,
secure, environment allowing for appropriate preservation and conservation. The current condition of Heritage
Assets at the Census Bureau is deemed “Good.” The Census Bureau generally expects that these assets will be
preserved indeﬁnitely. Written policies to guide the acquisition, maintenance, use, and disposal of the above
heritage assets at the Census Bureau are currently being developed.

                                            Collection-type Heritage Assets
                                                        Quantity of                                       Quantity of
                                                        Items Held                                        Items Held
                                                     September 30,                             2009    September 30,
 Category              Description of Assets                 2008 2009 Additions        Withdrawals            2009
 Collectable Assets    Publications, Books,
                       Manuscripts, Photographs,
                       and Maps                                 19                0                0               19
 Artwork and Gifts     Artifacts, Artwork, Books,
                       Films, Instruments, Records             132                0                0              132


 Total                                                         151                0                0             151


Note 13. Apportionment Categories of Obligations Incurred (Unaudited)
The amounts of direct and reimbursable obligations incurred against amounts apportioned under Categories A, B,
and Exempt from Apportionment are as follows:
                                                          FY 2009
                                          Direct     Reimbursable             Total
 Category A                           $3,320,617                         $3,320,617
 Category B                               30,625                             30,625
 Exempt from Apportionment                                 718,404          718,404
 Total                               $3,351,242          $718,404       $4,069,646

                                                          FY 2008
                                          Direct     Reimbursable             Total
 Category A                           $1,350,669                         $1,350,669
 Category B                               27,364                             27,364
 Exempt from Apportionment                                 653,269          653,269
 Total                               $1,378,033          $653,269       $2,031,302




U.S. Census Bureau                                                   FY 2009 Performance and Accountability Report 47
FINANCIAL SECTION


Note 14. Consolidating Reconciliation of Net Cost of Operations (Proprietary) to Budget
(Unaudited)
Most entity transactions are recorded in both budgetary and proprietary accounts. However, because diﬀerent
accounting bases are used for budgetary and proprietary accounting, some transactions may appear in only one
set of accounts. The following reconciliation provides a means to identify the relationships and diﬀerences that
exist between the aforementioned budgetary and proprietary accounts. The reconciliation of net cost of operations
to budget for the years ended September 30, 2009 and 2008, is as follows:
                                                                                               2009                2008
Resources Used to Finance Activities:

  Budgetary Resources Obligated
   Obligations Incurred                                                                   $4,069,646       $2,031,302
   Less: Spending Authority From Oﬀsetting Collections and Recoveries                      (784,660)        (685,839)
   Obligations Net of Oﬀsetting Collections and Recoveries                                 3,284,986        1,345,463
   Less: Oﬀsetting (Receipts)/Outlays, Net                                                         0                0
   Net Obligations                                                                         3,284,986        1,345,463

  Other Resources
   Transfers In/Out Without Reimbursement, Net                                                 (151)                  0
   Imputed Financing From Costs Absorbed by Others                                            58,673             48,159
   Net Other Resources Used to Finance Activities                                             58,522             48,159

Total Resources Used to Finance Activities                                                $3,343,508      $1,393,622

Resources Used to Finance Items Not Part of Net Cost of Operations:

 Change in Budgetary Resources Obligated for Goods, Services, and Beneﬁts
  Ordered but Not Yet Provided                                                             ($581,345)       ($146,803)
 Resources That Fund Expenses Recognized in Prior Periods
 Other                                                                                             0                 (95)
 Budgetary Oﬀsetting Collections and Receipts That Do Not Aﬀect Net Cost of Operations:
 Resources That Finance the Acquisition of Assets                                           (123,666)          (54,067)
 Other Resources or Adjustments to Net Obligated Resources That Do Not Aﬀect
  Net Cost of Operations:
   Transfers In/Out Without Reimbursements, Net                                                   151                0
   Change in Unﬁlled Customer Orders                                                         (19,448)          (5,468)
Total Resources Used to Finance Items Not Part of the Net Cost of Operations              ($724,308)       ($206,433)

Total Resources Used to Finance Net Cost of Operations                                    $2,619,200      $1,187,189

Components of Net Cost of Operations That Will Not Require or Generate
Resources in the Current Period:

  Components Requiring or Generating Resources in Future Periods
  Increase in Accrued Annual Leave Liability                                                  $8,332             $6,906
  Increase (Decrease) in Contingent Liabilities                                                2,600                  0
  Various Increases                                                                            5,238                112

Total Components of Net Cost of Operations That Will Require or
 Generate Resources in a Future Period                                                      $16,170             $7,018

Components Not Requiring or Generating Resources
 Depreciation, Amortization, and Depletion                                                   $34,142           $34,390
 Revaluation of Assets or Liabilities                                                         14,796             1,282
 Bad Debt Expense                                                                                (25)               27
 Other                                                                                         3,574                 0

  Total Components of Net Cost of Operations That Will Not Require or
   Generate Resources                                                                       $52,487           $35,699

Total Components of Net Cost of Operations That Will Require or
 Generate Resources in the Current Period                                                   $68,657           $42,717

NET COST OF OPERATIONS                                                                    $2,687,857      $1,229,906


48 FY 2009 Performance and Accountability Report                                                        U.S. Census Bureau
                                                                                                   FINANCIAL SECTION


REQUIRED SUPPLEMENTARY INFORMATION FOR THE STATEMENT OF
BUDGETARY RESOURCES BY MAJOR ACCOUNTS (UNAUDITED)
The amounts in the following table include both appropriated and reimbursable resources. In FY 2009, the
Census Bureau had three funding sources: (1) salaries and expenses; (2) periodic censuses and programs; and (3)
reimbursable programs. Reimbursable programs are reﬂected as spending authority from oﬀsetting collections on
the Statement of Budgetary Resources.

Salaries and expenses (S&E) is an annual congressional appropriation to fund current programs and ongoing
surveys. Annual appropriations expire at the end of the ﬁrst year of the appropriation and are canceled at the end
of the sixth year. Upon expiration of an annual appropriation, the obligated and unobligated balances retain their
ﬁscal year identity and are maintained separately within an expired account. Obligated balances may be used to
liquidate obligations properly chargeable to that ﬁscal year. The unobligated balance remains available to make
legitimate obligation adjustments.

Periodic censuses and programs (PCP) is a congressional 2-year appropriation that funds programs that occur on a
cyclical basis. A 2-year appropriation is available for obligation without ﬁscal year limitation.

Reimbursable program funds are received from various entities in exchange for the Census Bureau surveys and
data collection activities. Reimbursable agreements may be established with other federal agencies or with public
and private entities, such as colleges and universities.

The Census Bureau was provided 2-year funding under the American Recovery and Reinvestment Act to create
jobs, strengthen the economy, and conduct a successful 2010 Census. Census Bureau Recovery plans include
coverage follow-up enhancement, Partnership Program enhancement, public outreach, group quarters operations,
update/leave and update/enumerate operations, and local census oﬃce staﬃng operations.

Undelivered orders, including both appropriated and reimbursable activity, at the end of FY 2009 was
$935,073,897.

The Census Bureau provides centralized services to support the program areas. A working capital fund is
maintained to facilitate the processing and allocation of costs for maintaining these centralized administrative,
computer, and ﬁeld support activities.




U.S. Census Bureau                                                  FY 2009 Performance and Accountability Report 49
FINANCIAL SECTION


U.S. Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Required Supplementary Information for the Statement of Budgetary Resources
by Major Account
Fiscal Year Ended September 30, 2009 (Unaudited)
(In thousands)
                                                                    Periodic
                                                                   Censuses                     Working
                                                   Salaries and         and        Recovery      Capital        Combined
                                                      Expenses     Programs             Act        Fund            Total
BUDGETARY RESOURCES:

Unobligated Balance, Brought Forward, October 1         $5,641       $94,892             $0    $180,110           $280,643
Recoveries of Prior Year Unpaid Obligations                443        15,724              0      20,748             36,915
Budget Authority
  Appropriations                                       263,588      2,906,262     1,000,000            0         4,169,850
  Spending Authority From Oﬀsetting Collections
   Earned
     Collected                                              19             61             0      765,322           765,402
     Change in Receivables                                   0              0             0        1,792             1,792
   Change in Unﬁlled Customer Orders
     Advances Received                                       0               0             0      (7,480)          (7,480)
     Without Advances                                        0               0             0    (11,968)          (11,968)
Subtotal Budget Authority                              263,607      2,906,323      1,000,000     747,666        4,917,596
Nonexpenditure Transfers, Net                                0               0             0            0                0
Permanently Not Available                                (511)         (1,000)             0            0          (1,511)
TOTAL BUDGETARY RESOURCES                            $269,180     $3,015,939     $1,000,000    $948,524       $5,233,643

STATUS OF BUDGETARY RESOURCES:

Obligations Incurred
 Direct                                               $263,760    $2,987,044       $100,438           $0       $3,351,242
 Reimbursable                                                0             0              0      718,404          718,404
Total Obligations Incurred                             263,760     2,987,044        100,438      718,404        4,069,646
Unobligated Balance
 Apportioned                                            3,381          21,954       899,562            0           924,897
 Exempt From Apportionment                                  0               0             0      230,120           230,120
Total Unobligated Balance                               3,381          21,954       899,562      230,120         1,155,017
Unobligated Balance Not Available                       2,039           6,941             0            0             8,980
TOTAL STATUS OF BUDGETARY RESOURCES                  $269,180     $3,015,939     $1,000,000    $948,524       $5,233,643




50 FY 2009 Performance and Accountability Report                                                            U.S. Census Bureau
                                                                                                 FINANCIAL SECTION


U.S. Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Required Supplementary Information for the Statement of Budgetary Resources
by Major Account
Fiscal Year Ended September 30, 2009 (Unaudited)—Con.
(In thousands)                                                   Periodic
                                                                Censuses                     Working
                                                Salaries and         and      Recovery        Capital     Combined
                                                   Expenses     Programs           Act          Fund         Total
 CHANGE IN
 UNPAID OBLIGATED BALANCE, NET:

 Unpaid Obligated Balance, Net, Brought
 Forward, October 1
   Unpaid Obligations, Brought Forward              $12,955      $307,023            $0      $128,891      $448,869
    Less: Uncollected Customer Payments,
    Brought Forward                                       0              0            0       (24,550)      (24,550)

 Total Unpaid Obligated Balance, Net, Brought
  Forward                                             12,955       307,023             0       104,341       424,319
 Obligations Incurred                                263,761     2,987,043      100,438        718,404     4,069,646
 Less: Gross Outlays                               (256,483)   (2,406,176)      (23,375)     (665,775)   (3,351,809)
 Less: Recoveries of Prior Year Unpaid
  Obligations, Actual                                  (443)      (15,724)            0       (20,748)      (36,915)
 Change in Uncollected Customer Payments                   0             0            0         10,176        10,176
  Total Unpaid Obligated Balance, Net, End
  of Period                                        $19,790      $872,166       $77,063      $146,398     $1,115,417


 Unpaid Obligated Balance, Net, End of Period
    Unpaid Obligations                              $19,790      $872,166       $77,063      $160,772    $1,129,791
    Less: Uncollected Customer Payments                   0             0             0       (14,374)      (14,374)
 TOTAL UNPAID OBLIGATED BALANCE,
  NET, END OF PERIOD                               $19,790      $872,166       $77,063      $146,398     $1,115,417


 NET OUTLAYS:


 Gross Outlays                                     $256,483     $2,406,176      $23,375      $665,775     $3,351,809
 Less: Oﬀsetting Collections                            (19)           (61)           0      (757,842)     (757,922)
 NET OUTLAYS                                      $256,464     $2,406,115      $23,375      ($92,067)    $2,593,887




U.S. Census Bureau                                                  FY 2009 Performance and Accountability Report 51
FINANCIAL SECTION


U.S. Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Required Supplementary Information for the Statement of Budgetary Resources
by Major Account
Fiscal Year Ended September 30, 2008 (Unaudited)
(In thousands)
                                                                    Periodic
                                                                   Censuses                  Working
                                                   Salaries and         and      Recovery     Capital       Combined
                                                      Expenses     Programs           Act       Fund           Total
Budgetary Resources

Unobligated Balance, Brought Forward, October 1         $2,327         $6,246         $0    $152,333          $160,906
Recoveries of Prior Year Unpaid Obligations                372          4,097          0       9,275            13,744
Budget Authority
  Appropriations                                       232,838      1,237,406          0           0         1,470,244
  Spending Authority From Oﬀsetting Collections
   Earned
     Collected                                              10            315          0     675,709           676,034
     Change in Receivables                                   0              0          0       1,529             1,529
   Change in Unﬁlled Customer Orders
     Advances Received                                       0               0         0     (12,426)         (12,426)
     Without Advances                                        0               0         0        6,958            6,958
Subtotal Budget Authority                              232,848      1,237,721          0      671,770       2,142,339
Nonexpenditure Transfers Net                                 0         (3,000)         0            0          (3,000)
Permanently Not Available                                (679)         (1,365)         0            0          (2,044)
TOTAL BUDGETARY RESOURCES                            $234,868     $1,243,699          $0    $833,378      $2,311,945

STATUS OF BUDGETARY RESOURCES:

Obligations Incurred
  Direct                                              $229,226    $1,148,807          $0          $0       $1,378,033
  Reimbursable                                               0             0           0     653,269          653,269
Total Obligations Incurred                             229,226     1,148,807           0     653,269        2,031,302
Unobligated Balance
  Apportioned                                           3,680         89,950           0            0          93,630
  Exempt From Apportionment                                 0              0           0      180,110         180,110
Total Unobligated Balance                               3,680         89,950           0      180,110         273,740
Unobligated Balance Not Available                       1,961          4,942           0            0           6,903
TOTAL STATUS OF BUDGETARY RESOURCES                  $234,867     $1,243,699          $0    $833,379      $2,311,945




52 FY 2009 Performance and Accountability Report                                                        U.S. Census Bureau
                                                                                               FINANCIAL SECTION


U.S. Department of Commerce
Economics and Statistics Administration
U.S. Census Bureau

Required Supplementary Information for the Statement of Budgetary Resources
by Major Account
Fiscal Year Ended September 30, 2008 (Unaudited)—Con.
(In thousands)
                                                                Periodic
                                                               Censuses                    Working
                                                Salaries and        and     Recovery        Capital     Combined
                                                   Expenses    Programs          Act          Fund         Total
 CHANGE IN UNPAID OBLIGATED
 BALANCE, NET:

 Unpaid Obligated Balance, Net, Brought
 Forward, October 1
    Unpaid Obligations, Brought Forward              $9,328    $142,986            $0      $123,610      $275,924
    Less: Uncollected Customer Payments,
    Brought Forward                                       0            0            0       (16,062)      (16,062)
 Total Unpaid Obligated Balance, Net, Brought
  Forward                                              9,328     142,986            0        107,548       259,862
 Obligations Incurred                                229,227   1,148,807            0        653,268     2,031,302
 Less: Gross Outlays                               (225,226)   (980,674)            0      (638,713)   (1,844,613)
 Less: Recoveries of Prior-Year Unpaid
  Obligations, Actual                                  (374)      (4,096)           0        (9,274)      (13,744)
 Change in Uncollected Customer Payments                   0            0           0        (8,488)       (8,488)
  Total Unpaid Obligated Balance, Net, End
  of Period                                         $12,955    $307,023            $0      $104,341      $424,319

 Unpaid Obligated Balance, Net, End of Period
   Unpaid Obligations                               $12,955    $307,022            $0      $128,892      $448,869
   Less: Uncollected Customer Payments                    0           0             0       (24,550)      (24,550)
 TOTAL UNPAID OBLIGATED BALANCE,
  NET, END OF PERIOD                               $12,955     $307,022            $0     $104,342      $424,319

 NET OUTLAYS:

 Gross Outlays                                     $225,226     $980,673           $0      $638,714     $1,844,613
 Less: Oﬀsetting Collections                            (10)       (314)            0      (663,284)     (663,608)
 NET OUTLAYS                                      $225,216     $980,359            $0     ($24,570)    $1,181,005




U.S. Census Bureau                                                FY 2009 Performance and Accountability Report 53
                                        INDEPENDENT AUDITORS’ REPORT




                                                    CENSR-24
INDEPENDENT AUDITORS’ REPORT




U.S. Census Bureau     FY 2009 Performance and Accountability Report 55
                                                                                          INDEPENDENT AUDITORS’ REPORT




                                                         UNITED STATES DEPARTMENT OF
       COMMERCE
                                                         The Inspector General
                                                         Washington, D.C. 20230




       November 10, 2009


       MEMORANDUM FOR:                 Dr. Robert M. Groves
                                       Director, U.S. Census Bureau



       FROM:                           Todd J. Zinser


       SUBJECT:	                       FY 2009 Financial Statements
                                       Final Audit Report No. FSD-19651-0-0002


       I am pleased to provide you with the attached audit report, which presents an unqualified opinion
       on the U.S. Census Bureau’s consolidated balance sheet as of September 30, 2009. The audit results
       indicate that the bureau has established an internal control structure that facilitates the preparation
       of reliable financial and performance information.

       KPMG LLP, an independent public accounting firm, performed the audit of the U.S. Census
       Bureau’s consolidated balance sheet as of September 30, 2009. The contract with KPMG required
       that the audit be performed in accordance with U.S. generally accepted government auditing
       standards and Office of Management and Budget Bulletin 07-04, Audit Requirements for Federal
       Financial Statements, as amended.

       In its audit, KPMG found that

       • 	 the balance sheet was fairly presented, in all material respects and in conformity with
           U.S. generally accepted accounting principles;

       • 	 there were no deficiencies in internal control over financial reporting that were considered to be
           material weaknesses;

       • 	 there were no instances of material noncompliance with laws, regulations, and contracts; and

       • 	 there were no instances in which the bureau’s financial management systems did not
           substantially comply with the requirements of the Federal Financial Management Improvement
           Act of 1996.




                                                                                                                 �
U.S. Census Bureau 	                                                     FY 2009 Performance and Accountability Report 57
INDEPENDENT AUDITORS’ REPORT


      My office oversaw the audit performance and delivery. We reviewed KPMG’s report and related
      documentation and made inquiries of its representatives. Our review disclosed no instances where
      KPMG did not comply, in all material respects, with U.S. generally accepted government auditing
      standards. However, our review cannot be construed as an audit in accordance with U.S. generally
      accepted government auditing standards. It was not intended to enable us to express—and we do
      not express—any opinion on the U.S. Census Bureau’s financial statements, conclusions about the
      effectiveness of internal controls, or conclusions on compliance with laws, regulations, and
      contracts. KPMG is solely responsible for the attached audit report dated November 9, 2009, and
      the conclusions expressed in the report.

      If you wish to discuss the contents of this report, please call me at (202) 482-4661, or Dr. Brett M.
      Baker, assistant inspector general for audit, at (202) 482-2600.

      We appreciate the cooperation and courtesies the U.S. Census Bureau extended to both KPMG and
      my staff during the audit.


      Attachment


      cc: 	   Ted A. Johnson
              Associate Director for Administration and Chief Financial Officer, U.S. Census Bureau

              Rebecca M. Blank 

              Under Secretary for Economic Affairs, Economics and Statistics Administration 


              John F. Charles 

              Acting Chief Financial Officer and Acting Assistant Secretary for Administration, 

              U.S. Department of Commerce




58 FY 2009 Performance and Accountability Report 	                                                            U.S. Census Bureau
                                                                                                                          INDEPENDENT AUDITORS’ REPORT




                                          KPMG LLP
                                          2001 M Street, NW
                                          Washington, DC 20036




                                                     Independent Auditors’ Report


          Inspector General, U.S. Department of Commerce and
          Director, U.S. Census Bureau:

          We have audited the accompanying consolidated balance sheet of the U.S. Census Bureau (Census
          Bureau), an agency within the U.S. Department of Commerce, as of September 30, 2009. The objective of
          our audit was to express an opinion on the fair presentation of the consolidated balance sheet. In
          connection with our fiscal year 2009 audit, we also considered the Census Bureau’s internal control over
          financial reporting and tested the Census Bureau’s compliance with certain provisions of applicable laws,
          regulations, and contracts that could have a direct and material effect on the consolidated balance sheet.

          Summary
          As stated in our opinion on the consolidated balance sheet, we concluded that the Census Bureau’s
          consolidated balance sheet as of September 30, 2009, is presented fairly, in all material respects, in
          conformity with U.S. generally accepted accounting principles.

          Our consideration of internal control over financial reporting was not designed to identify all deficiencies
          in the internal control over financial reporting that might be deficiencies, significant deficiencies, or
          material weaknesses. However, we did not identify any deficiencies in internal control over financial
          reporting that we consider to be material weaknesses as defined in the Internal Control Over Financial
          Reporting section of this report.

          The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
          no instances of noncompliance or other matters that are required to be reported under Government Auditing
          Standards and OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
          amended.

          The following sections discuss our opinion on the Census Bureau’s consolidated balance sheet; our
          consideration of the Census Bureau’s internal control over financial reporting; our tests of the Census
          Bureau’s compliance with certain provisions of applicable laws, regulations, and contracts; and
          management’s and our responsibilities.

          Opinion on the Consolidated Balance Sheet
          We have audited the accompanying consolidated balance sheet of the Census Bureau as of September 30,
          2009.

          In our opinion, the consolidated balance sheet referred to above presents fairly, in all material respects, the
          financial position of the Census Bureau as of September 30, 2009, in conformity with U.S. generally
          accepted accounting principles.

          We were not engaged to audit the accompanying consolidated balance sheet as of September 30, 2008 and
          the related consolidated statements of net cost and changes in net position, and the combined statements of



                                           KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                           member firm of KPMG International, a Swiss cooperative.




U.S. Census Bureau                                                                                       FY 2009 Performance and Accountability Report 59
INDEPENDENT AUDITORS’ REPORT




       U.S. Census Bureau
       November 9, 2009
       Page 2 of 4


       budgetary resources for the years ended September 30, 2009 and 2008, and accordingly, we do not express
       an opinion on these financial statements.

       The information in the Management’s Discussion and Analysis and Required Supplementary Information
       is not a required part of the consolidated financial statements, but is supplementary information required by
       U.S. generally accepted accounting principles. We have applied certain limited procedures, which
       consisted principally of inquiries of management regarding the methods of measurement and presentation
       of this information. However, we did not audit this information and, accordingly, we express no opinion on
       it.

       Our audit was conducted for the purpose of forming an opinion on the consolidated balance sheet taken as
       a whole. The information in the Performance Section, Appendixes and the information on pages 1 and 2 are
       presented for purposes of additional analysis and are not required as part of the consolidated financial
       statements. This information has not been subjected to auditing procedures and, accordingly, we express no
       opinion on it.

       Internal Control Over Financial Reporting
       Our consideration of the internal control over financial reporting was for the limited purpose described in
       the Responsibilities section of this report and was not designed to identify all deficiencies in the internal
       control over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses.

       A deficiency in internal control exists when the design or operation of a control does not allow
       management or employees, in the normal course of performing their assigned functions, to prevent, or
       detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
       combination of deficiencies, in internal control that is less severe than a material weakness, yet important
       enough to merit attention by those charged with governance. A material weakness is a deficiency, or
       combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
       misstatement of the Census Bureau’s financial statements will not be prevented, or detected and corrected
       on a timely basis.

       In our fiscal year 2009 audit, we did not identify any deficiencies in internal control over financial
       reporting that we consider to be material weaknesses as defined above.

       We noted certain additional matters that we have reported to management of the Census Bureau in two
       separate documents which address information technology and other matters.

       Compliance and Other Matters
       The results of our tests of compliance described in the Responsibilities section of this report, exclusive of
       those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
       be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

       The results of our tests of FFMIA disclosed no instances in which the Census Bureau’s financial
       management systems did not substantially comply with the (1) Federal financial management systems
       requirements, (2) applicable Federal accounting standards, and (3) the United States Government Standard
       General Ledger at the transaction level.

                                                       *******




60 FY 2009 Performance and Accountability Report                                                                  U.S. Census Bureau
                                                                                                INDEPENDENT AUDITORS’ REPORT




          U.S. Census Bureau
          November 9, 2009
          Page 3 of 4


          Responsibilities
          Management’s Responsibilities. Management is responsible for the consolidated financial statements;
          establishing and maintaining effective internal control; and complying with laws, regulations, and contracts
          applicable to the Census Bureau.

          Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2009
          consolidated balance sheet of the Census Bureau based on our audit. We conducted our audit in accordance
          with auditing standards generally accepted in the United States of America; the standards applicable to
          financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
          United States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we
          plan and perform the audits to obtain reasonable assurance about whether the consolidated balance sheet is
          free of material misstatement. An audit includes consideration of internal control over financial reporting
          as a basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose
          of expressing an opinion on the effectiveness of the Census Bureau’s internal control over financial
          reporting. Accordingly, we express no such opinion.

          An audit also includes:

          •	      Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
                  balance sheet;
          •	      Assessing the accounting principles used and significant estimates made by management; and
          •	      Evaluating the overall consolidated balance sheet presentation.
          We believe that our audit provides a reasonable basis for our opinion.

          In planning and performing our fiscal year 2009 audit, we considered the Census Bureau’s internal control
          over financial reporting by obtaining an understanding of the Census Bureau’s internal control,
          determining whether internal controls had been placed in operation, assessing control risk, and performing
          tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
          on the consolidated balance sheet. We did not test all controls relevant to operating objectives as broadly
          defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was not to
          express an opinion on the effectiveness of the Census Bureau’s internal control over financial reporting.
          Accordingly, we do not express an opinion on the effectiveness of the Census Bureau’s internal control
          over financial reporting.

          As part of obtaining reasonable assurance about whether the Census Bureau’s fiscal year 2009 consolidated
          balance sheet is free of material misstatement, we performed tests of the Census Bureau’s compliance with
          certain provisions of laws, regulations, and contracts, noncompliance with which could have a direct and
          material effect on the determination of the consolidated balance sheet amounts, and certain provisions of
          other laws and regulations specified in OMB Bulletin No. 07-04, including the provisions referred to in
          Section 803(a) of FFMIA. We limited our tests of compliance to the provisions described in the preceding
          sentence, and we did not test compliance with all laws, regulations, and contracts applicable to the Census
          Bureau. However, providing an opinion on compliance with laws, regulations, and contracts was not an
          objective of our audit and, accordingly, we do not express such an opinion.

                                              ______________________________




U.S. Census Bureau 	                                                           FY 2009 Performance and Accountability Report 61
INDEPENDENT AUDITORS’ REPORT




       U.S. Census Bureau
       November 9, 2009
       Page 4 of 4


       This report is intended solely for the information and use of the U.S. Census Bureau and the U.S.
       Department of Commerce management, the U.S. Department of Commerce Office of Inspector General,
       OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and
       should not be used by anyone other than these specified parties.




       November 9, 2009




62 FY 2009 Performance and Accountability Report                                                       U.S. Census Bureau
                                                                  APPENDIX A




APPENDIXES (UNAUDITED)                                 CENSR-24




U.S. Census Bureau       FY 2009 Performance and Accountability Report 63
                                                                                                                      APPENDIX A


APPENDIX A. 

PERFORMANCE AND RESOURCE TABLES


PERFORMANCE OUTCOME: 

Provide benchmark measures of the U.S. population, economy, and governments 

(ESA/CENSUS) 



                                             PERFORMANCE OUTCOME RESOURCES
                     FY 2002       FY 2003       FY 2004        FY 2005       FY 2006       FY 2007       FY 2008       FY 2009
                       Actual        Actual        Actual         Actual        Actual        Actual        Actual        Actual
 Funding               $799.5        $846.9        $930.1       $1,013.6      $1,078.9      $1,173.0        $917.9      $2,773.4
 FTE                     8,420         7,729         8,038         8,433         8,778         8,418         3,072        20,007
 In FY 2008, the Census Bureau split the outcome, “Meet the needs of policymakers, businesses, nonproﬁt organizations, and
 the public for current and benchmark measures of the U.S. population, economy, and governments,” into this outcome and the
 performance outcome, “Provide current measures of the U.S. population, economy, and governments.” Funds for the years prior
 to FY 2008 are shown in this outcome and reﬂect both outcomes. Obligations diﬀer from amounts shown in the Statement of
 Budgetary Resources because they do not include Recovery Act, Expired, and the Working Capital Funds.




 MEASURE: Correct street features in the TIGER® (geographic) database (number of counties completed) to more eﬀectively
 support Census Bureau censuses and surveys, facilitate the geographic partnerships between federal, state, local, and tribal
 governments, and support the E-Government initiative in the President's Management Agenda.
 Year                               Status          Actual                                  Target
 FY 2009                            Met             Completed updates to eligible           Complete updates to eligible
                                                    counties in the United States, Puerto   counties in the United States, Puerto
                                                    Rico, and the Island Areas              Rico, and the Island Areas
 Performance was not met because:


 Strategies for improvement:


 Year                               Status          Historical Results                      Historical Target
 FY 2008                            Met             320                                     320
 FY 2007                            Met             737                                     690
 FY 2006                            Met             700                                     700
 FY 2005                            Met             623                                     610
 FY 2004                            Met             602                                     600
 FY 2003                            Met             250                                     250
 FY 2002                            Met             Prepared plan and systems to            Prepare plan and systems to measure
                                                    measure housing unit coverage           housing unit coverage




U.S. Census Bureau                                                          FY 2009 Performance and Accountability Report 65
APPENDIX A



 MEASURE: Complete key activities for cyclical census programs on time to support eﬀective decision-making by policymakers,
 businesses, and the public and meet constitutional and legislative mandates.
 Year                                Status         Actual                                   Target
 FY 2009                             Met            92 percent of key activities             At least 90 percent of key activities
                                                    completed on time                        completed on schedule
 Performance was not met because:


 Strategies for improvement:


 Year                                Status         Historical Results                       Historical Target
 FY 2008                             Not Met        Some of the planned dress rehearsal      At least 90 percent of key prep
                                                    activities were cancelled                activities completed on time
 FY 2007                             Met            At least 90 percent of key prep          At least 90 percent of key prep
                                                    activities completed on time             activities completed on time
 FY 2006                             Met            100 percent of activities completed      At least 90 percent of key prep
                                                    on time                                  activities completed on time
 FY 2005                             Met            Activities completed on time             Various activities with diﬀerent dates




 MEASURE: Meet or exceed the overall federal score of customer satisfaction on the E-Government American Customer
 Satisfaction Index (ACSI).
 Year                                Status         Actual                                   Target
 FY 2009                             Not Met        Scored 68 percent                        Meet or exceed the overall federal
                                                                                             score of 75.2 percent
 Performance was not met because:
 Visitors to large Web sites that have a wealth of information and who are not necessarily familiar with the data available tend to
 experience more challenges ﬁnding the information they seek.


 Strategies for improvement:
 In October 2009 the Census Bureau launched its newly designed Web site and continues to expand its corporate look and feel
 across the site. It is anticipated that these new designs will make it easier for visitors to ﬁnd the information they seek.


 Year                                Status         Historical Results                       Historical Target
 FY 2008                             Not Met        66.0                                     73.9
 FY 2007                             Met            74.0                                     71.0
 FY 2006                             Met            72.0                                     71.3
 FY 2005                             Met            73.0                                     73.0
 FY 2004                             Slightly       71.0                                     72.0
                                     Below
 This measure applies to the second outcome as well.




66 FY 2009 Performance and Accountability Report                                                                     U.S. Census Bureau
                                                                                                                      APPENDIX A


PERFORMANCE OUTCOME: 

Provide current measures of the U.S. population, economy, and governments 

(ESA/CENSUS) 



                                             PERFORMANCE OUTCOME RESOURCES
                                     FY 2002     FY 2003    FY 2004     FY 2005    FY 2006    FY 2007     FY 2008      FY 2009
                                       Actual      Actual     Actual      Actual     Actual     Actual      Actual       Actual
 Funding                                  New        New         New        New         New        New      $703.1       $715.9
 FTE                                      New        New         New        New         New        New        5,979       6,231
 In FY 2008, Census Bureau split the outcome, “Meet the needs of policymakers, businesses, nonproﬁt organizations, and the
 public for current and benchmark measures of the U.S. population, economy, and governments,” into this outcome and the
 performance outcome, “Provide current measures of the U.S. population, economy, and governments.” Funds for the years prior
 to FY 2008 are shown in this outcome and reﬂect both outcomes. Obligations diﬀer from amounts shown in the Statement of
 Budgetary Resources because they do not include Recovery Act funds, expired funds, and the Working Capital funds.




 MEASURE: Achieve predetermined collection rates for Census Bureau censuses and surveys in order to provide statistically
 reliable data to support eﬀective decision-making of policymakers, businesses, and the public.
 Year                               Status         Actual                                 Target
 FY 2009                            Met            100 percent of key census and          At least 90 percent of key censuses
                                                   surveys met/exceeded collection        and surveys meet/exceed collection
                                                   rates/levels of reliability            rates/levels of reliability
 Performance was not met because:


 Strategies for improvement:


 Year                               Status         Historical Results                     Historical Target
 FY 2008                            Met            Met percentages                        At least 90 percent of key censuses
                                                                                          and surveys meet/exceed collection
                                                                                          rates/levels of reliability.
 FY 2007                            Met            Met percentages                        At least 90 percent of key censuses
                                                                                          and surveys meet/exceed collection
                                                                                          rates/levels of reliability.
 FY 2006                            Met            Met percentages                        At least 90 percent of key censuses
                                                                                          and surveys meet/exceed collection
                                                                                          rates/levels of reliability.
 FY 2005                            Met            Met percentages                        Various percents—see FY 2006 APP
 FY 2004                            Met            Met percentages                        Various percents—see FY 2005 APP
 FY 2003                            Met            Met percentages                        Various percents—see FY 2004 APP




U.S. Census Bureau                                                        FY 2009 Performance and Accountability Report 67
APPENDIX A




 MEASURE: Release data products for key Census Bureau programs on time to support eﬀective decision-making of
 policymakers, businesses, and the public.
 Year                               Status       Actual                                 Target
 FY 2009                            Met          • 100 percent of economic              • 100 percent of economic
                                                   indicators released on schedule        indicators released on schedule
                                                 • 100 percent of other data            • At least 90 percent of other
                                                   products from key surveys              data products from key surveys
                                                   released on schedule                   released on schedule
 Performance was not met because:


 Strategies for improvement:


 Year                               Status       Historical Results                     Historical Target
 FY 2008                            Met          • 100 percent of economic              • 100 percent of economic
                                                   indicators released on time            indicators released on time
                                                 • >89 percent of key prep activities   • At least 90 percent of key prep
                                                   completed on time                      activities completed on time


 FY 2007                            Met          • 100 percent of economic              • 100 percent of economic
                                                   indicators released on time            indicators released on time
                                                 • >89 percent of other key             • >89 percent of other key
                                                   censuses and surveys data              censuses and surveys data
                                                   released on time                       released on time


 FY 2006                            Met          • 100 percent of economic              • 100 percent of economic
                                                   indicators released on time            indicators released on time
                                                 • 100 percent of other products        • >89 percent of other key
                                                                                          censuses and surveys data
                                                                                          released on time
 FY 2005                            Met          22 products                            22 products
 FY 2004                            Exceeded     10 products                            7 products
 FY 2003                            Not Met      2 products                             3 products




68 FY 2009 Performance and Accountability Report                                                              U.S. Census Bureau
                                                                                                          APPENDIX B


APPENDIX B.
DEFINITION OF PERFORMANCE MEASURES AND
VALIDATION AND VERIFICATION INFORMATION

PERFORMANCE OUTCOME: 

Provide benchmark measures of the U.S. population, economy, and governments 

(ESA/CENSUS) 


Correct street features in the TIGER® (geographic) database (number of counties completed) to more
eﬀectively support Census Bureau censuses and surveys, facilitate the geographic partnerships between
federal, state, local, and tribal governments, and support the E-Government initiative in the President’s
Management Agenda.
It is essential that the Census Bureau correctly locate every street in the MAF/TIGER® system to provide geographic
products and services that meet the accuracy expectations of the 2010 Census ﬁeld data collection staﬀ, the
Census Bureau’s data product customers, and the needs of the U.S. Geological Survey/The National Map. Many
local and tribal governments that participated in the Census 2000 geographic partnership programs and many
potential customers for MAF/TIGER® geographic products indicated that they would not consider future geographic
partnerships or use without substantial improvements in location accuracy. Investing in the identiﬁcation and
correct location of new housing units and streets or roads in small towns and rural areas will ensure uniform
address and street coverage in the MAF/TIGER® database and in the Census Bureau’s data products, both for the
American Community Survey (ACS) and the 2010 Census.


 Data Source                      MAF/TIGER® activity schedule
 Frequency                        As scheduled
 Data Storage                     Census Bureau MAF/TIGER® database
 Internal Controls                The Census Bureau compares actual completion dates with scheduled dates
 Data Limitations                 None
 Actions to Be Taken              Continue quarterly reviews of performance data


Complete key activities for cyclical census programs on time to support eﬀective decision-making by
policymakers, businesses, and the public and meet constitutional and legislative mandates.
Due to the cyclical nature of these programs, it is important for the Census Bureau to track annual key activities
that support the programs. The Census Bureau tracks the internal activities that are considered to be the most
important in meeting the long-term goals of the cyclical census programs.


 Data Source                      Activity schedules kept by each of the cyclical census programs
 Frequency                        Ongoing, based on activity schedules
 Data Storage                     The Census Bureau program oﬃces maintain activity schedules and performance
                                  data
 Internal Controls                The Census Bureau compares actual completion dates with scheduled dates
                                  Performance data is reviewed quarterly
 Data Limitations                 None
 Actions to Be Taken              Continue quarterly reviews of performance data


Meet or exceed the overall federal score of customer satisfaction on the E-Government American Customer
Satisfaction Index (ACSI).
The ACSI is a survey conducted since 1994 by the University of Michigan in cooperation with other groups.
It tracks trends in customer satisfaction and provides benchmarks that can be compared across industries
and between the public and private sectors. FY 2008 begins the benchmarking year for the Census Bureau’s

U.S. Census Bureau                                                  FY 2009 Performance and Accountability Report 69
APPENDIX B


participation in the E-Government ACSI. Based on responses to the former annual ACSI and the Census Bureau’s
Corporate Annual Survey of Web Site Visitors, the Census Bureau anticipates meeting or exceeding the average
federal government customer satisfaction levels and will identify and make iterative adjustments to processes or
custom questions asked to focus on improving overall quality and satisfaction.

 Data Source                      Census Bureau data users at State Data Centers, Business Information Data
                                  Centers, Census Information Centers, and Regional Federal Depository Libraries
 Frequency                        Annually
 Data Storage                     Primary storage is at the University of Michigan
 Internal Controls                Data are collected electronically and cross-tabulated. Interviewers are
                                  continuously monitored, with supervisors randomly listening in on interviews
 Data Limitations                 Sample size determines the limits of statements that can be made based on the
                                  data. All Census Bureau–related ACSI reports are careful to report conﬁdence
                                  intervals
 Actions to Be Taken              Continue quarterly reviews of performance data


PERFORMANCE OUTCOME: 

Provide current measures of the U.S. population, economy, and governments 

(ESA/CENSUS)


Achieve predetermined collection rates for Census Bureau censuses and surveys in order to provide
statistically reliable data to support eﬀective decision-making of policymakers, businesses, and the public.
This measure focuses on maintaining a high level of response for both demographic and economic surveys to
ensure that information from Census Bureau surveys and censuses are always reliable and widely accepted by
customers over the long term. Reliability of Census Bureau statistics is essential to enhance the supply of key
economic and demographic data to support eﬀective decision-making of policymakers, businesses, the American
public, and others.


 Data Source                      Census Bureau surveys are the initial collection source. Internal control ﬁles and
                                  systems are the source of the response-rate data
 Frequency                        Response rates are tied to data collection. Frequency varies by survey
 Data Storage                     All data are stored in Census Bureau databases and are published in public press
                                  releases
 Internal Controls                Quality assurance analyses, Automated Data Processing (ADP) routines, and peer
                                  reviews
 Data Limitations                 Data that are released must adhere to Title 13 requirements to protect
                                  respondents’ conﬁdentiality
 Actions to Be Taken              Continue quarterly reviews of performance data


Release data products for key Census Bureau programs on time to support eﬀective decision-making of
policymakers, businesses, and the public.
It is essential that the Census Bureau release data products on schedule to enhance the supply of key economic
and demographic data to support eﬀective decision-making of policymakers, businesses, and the American
public. This measure focuses on two parts: economic indicators and other key surveys and reports. OMB Statistical
Directive No. 3 requires that the Census Bureau release principal economic indicator data within prescribed time
periods. Thus, the impact of not meeting release dates for the economic indicators is much more serious.




70 FY 2009 Performance and Accountability Report                                                       U.S. Census Bureau
                                                                                                APPENDIX B



 Data Source           Actual data releases by Census Bureau programs
 Frequency             The frequency of data releases varies. Release dates are often published in
                       advance
 Data Storage          Data release information is stored in Census Bureau systems and public
                       data releases
 Internal Controls     Performance data are veriﬁed by comparing actual release dates with scheduled
                       release dates. Methodological standards for surveys are publicly reported
 Data Limitations      Data that are released must adhere to Title 13 requirements to protect
                       respondents’ conﬁdentiality
 Actions to Be Taken   Continue quarterly reviews of performance data




U.S. Census Bureau                                      FY 2009 Performance and Accountability Report 71
APPENDIX C


APPENDIX C: 

IMPROPER PAYMENTS INFORMATION ACT (IPIA) REPORTING DETAILS

IPIA was enacted to provide for estimates and reports of improper payments by federal agencies. The act requires
that federal agencies estimate improper payments and report on actions to reduce them. A review of all programs
and activities that the Census Bureau administers is required annually to assist in identifying and reporting
improper payments. The Census Bureau has not identiﬁed any signiﬁcant problems with improper payments;
however, the Census Bureau recognizes the importance of maintaining adequate internal controls to ensure proper
payments, and the Census Bureau’s commitment to the continuous improvement in the overall disbursement
management process remains very strong. Each of the Census Bureau’s payment oﬃces has implemented
procedures to detect and prevent improper payments.

I. Risk Assessment(s)
Employees such as contracting oﬃcer representatives (COR), administrative oﬃces staﬀ, receiving dock staﬀ, or
those at other points of receipt who accept delivery of goods and services must document receipt at the time
of delivery of the goods or completion of services and, in turn, forward this information to the Census Bureau’s
Finance Division by the ﬁfth business day after receipt or acceptance of the goods or services.

When goods procured by Type 40 Purchase Orders are received (ones used to order supplies, equipment, and
services on a nonrecurring basis), divisions and oﬃces should access the Administrative and Customer Services
Division’s (ACSD’s) Automated Property Management System (APMS) to generate a Form BC-1766, Receiving Report.
For goods acquired through the General Services Administration’s Federal Standard Requisitioning and Issue
Procedure (FEDSTRIP), divisions and oﬃces must prepare Form CD-391, Receiving Report. Access to APMS can be
obtained by contacting the Property Records and Transportation Management Branch in ACSD. The procedures for
accessing and using this system are documented in the APMS Users Guide.

For services acquired by contract, the current process requires the COR to validate receipt by certifying a copy of
the invoice submitted by the vendor for the services provided. For services acquired by Type 43 Purchase Orders
(ones generally used for recurring payments), divisions and oﬃces must prepare Form BC-1891, Invoice Cost
Allocation Receiving Report.

For a certiﬁcation to be valid, the Census Bureau program oﬃces must include the following information on the
receiving report or certiﬁed copy of the invoice:

• 	 Contract, delivery order, task, purchase order, or other authorization number.

• 	 Description of the goods or services that reference the line item on the source document (with the line item
    numbers and dollar amount for each speciﬁc line on the receiving report listed).

• 	 Quantities received, if applicable.

• 	 Date(s) the goods or services were received and accepted.

• 	 Signature, or electronic alternative when supported by appropriate internal controls; printed name; title; phone
    number; and mailing address of the receiving/approving oﬃcial.

• 	 Name of the vendor.

• 	 Date the invoice was received. (This is the responsibility of the oﬃce designated in the purchase agreement
    that ﬁrst receives the invoice.)

The results of the Census Bureau assessments revealed no risk-susceptible programs and demonstrated that,
overall, the Census Bureau has strong internal controls over the disbursement process, the amounts of improper
payments are immaterial, and the risk of improper payments is low.




72 FY 2009 Performance and Accountability Report 	                                                     U.S. Census Bureau
                                                                                                       APPENDIX C


II. Sampling Process
In FYs 2005 through 2008, there have been no General Accountability Oﬃce or Department of Commerce/
Oﬃce of Inspector General audits of the Census Bureau’s disbursements processes. During the same period, the
DOC’s Performance and Accountability Report revealed no risk-susceptible programs and no signiﬁcant improper
payments responsive to OMB Circular No. A-123, Appendix C, Requirements for Eﬀective Measurement and
Remediation of Improper Payments. In 2005, Horn & Associates, Inc., completed a Recovery Audit of 30 folders and
reported no ﬁndings. Noting its Improved Financial Performance initiative on the President’s Management Agenda
scorecard submissions, the Census Bureau reported participation with the DOC on its Audit Recovery Program.

III. Corrective Action Plans
To assist Census Bureau programs and activities, staﬀ responsible for payments can refer questions concerning
the validity of a payment to the appropriate oﬃces. They can also obtain guidance concerning management
of disbursements from Census Bureau and DOC budget and ﬁnance procedures from several sources, such as
Federal Acquisition Regulations and OMB Circular No. A-11 section titled “Information on Erroneous Payments,” the
Commerce Acquisition Manual (CAM), and the Accounts Payable Procedures Manual. The Census Bureau maintains
policy and procedures manuals (PPMs) concerning disbursements, such as, F-23, Prompt Payment Guidance
(updated February 2009), which discusses how to handle improper invoices, and F-6, Gifts and Bequests, which
discusses under- and overpayment. Other PPM chapters delineate signatory authorities for levels of disbursements.
Administrative oﬃces and oﬃcers work with divisions and their staﬀ on ﬁnancial procedures and processes
for making disbursements. CORs engaged in contract administration receive required training to ensure they
understand their responsibilities to safeguard the government’s assets and funds. CORs receive appointment letters
from the chief acquisition oﬃcer, which list their responsibilities, and CORs are encouraged to work closely with
acquisition personnel. (See 2008 Procurement/Grants Management Functions Risk Assessment Template.) Purchase
card policy and procedures are available in “DOC Purchase Card Procedures” outlined in CAM 1313.301. The Travel
Management Team interprets the Federal Travel Regulations, DOC and Census Bureau policy/procedures, and other
applicable laws governing oﬃcial travel. The Finance Division’s Web page provides links and instructions to staﬀ
responsible for making, approving, and recovering payments to help prevent the likelihood and negative impact of
improper payments.




U.S. Census Bureau                                                FY 2009 Performance and Accountability Report 73
APPENDIX C


IV. Auditing Eﬀort

                                                    Internal Controls
                                                                                                      Risk Assessment
                                                       Evaluation
                                                                                     Probability                  Risk Level
Risk                                                         Information             of            Impact of      (Low,
Factor Speciﬁc Risk Factors to     Control      Control      and Com­    Monitoring/ Improper      Improper       Medium, Risk
#      This Program/Activity       Environ.     Activities   munication Evaluation Payments        Payments       High)      Score
1       Payments are made for    Eﬀective       Eﬀective     Eﬀective    Eﬀective     Rare         Insigniﬁcant   Low         1
        services or products not
        received.
2       Payments are not made      Eﬀective     Eﬀective     Eﬀective    Eﬀective     Rare         Insigniﬁcant   Low         1
        for services or products
        received.
3       Disbursements made         Eﬀective     Eﬀective     Eﬀective    Eﬀective     Rare         Insigniﬁcant   Low         1
        to the vendor for the
        incorrect amount or,
        for example, duplicate
        invoices.
4       Payment is made            Eﬀective     Eﬀective     Eﬀective    Eﬀective     Rare         Insigniﬁcant   Low         1
        on unsupported or
        inadequately supported
        claims.
5       Funds used for other       Eﬀective     Eﬀective     Eﬀective    Eﬀective     Rare         Insigniﬁcant   Low         1
        than intended purposes
        by participating
        divisions, oﬃces, or
        external bureaus.
        Total Risk Score for All Speciﬁc Risk Factors                                                             N/A         5
        Average Risk Score for All Speciﬁc Risk Factors (divide above by # of Speciﬁc Risk Factors)               N/A         1
        Risk Level for All Speciﬁc Risk Factors (Low, Medium, High)                                               Low         N/A

For the table above, Average Risk Score for All Speciﬁc Risk Factors converts to Risk Level for All Speciﬁc Risk
Factors as follows:

    Average Risk Score of 1.0–1.7 = Risk Level of Low
    Average Risk Score of 1.8–2.2 = Risk Level of Medium
    Average Risk Score of 2.3–3.0 = Risk Level of High

V. Action Plan for Accountability
There is low inherent risk that the following would go undetected: unfunded or unauthorized purchases; mis- or
understated obligations; unpaid invoices; infractions of the Prompt Payment Act; duplicate invoices; or payments
are made for goods and services not received. The work is under control of the government and transactions are
not complex. A number of control risk measures are taken to monitor disbursements. At the activity level program
managers and oﬃces track progress against budgets to ensure accurate and timely control over budget resources.
They use ﬁnancial management and budget progress and status reporting—for instance, Finance Management,
Other Objects, and Undelivered Order Reports generated from the Commerce Business Systems. Program oﬃces
are staﬀed with trained CORs (e.g., task managers) and managers who are responsible for monitoring the accuracy
of disbursements. A Finance Division quality control section performs monthly reviews, as does the Travel and
Conference Services Oﬃce.

VI. Information Systems Corrective Measures
The Commerce Business System produces a number of reports available to staﬀ and oﬃces to track and check
disbursements. For example, staﬀ and oﬃces receive monthly Financial Management Reports and Other Objects
Reports with which to track disbursements.




74 FY 2009 Performance and Accountability Report                                                                    U.S. Census Bureau
                                                                                                        APPENDIX C


The Data Warehouse Budget and Expense Query Application is a tool for the enhanced query and analysis of
budget and expense data. This tool is used to investigate questionable amounts or charges at a transaction level.

The Economic Directorate uses a number of reports to track payments under interagency agreements, for example,
the Reimbursable Project Management Report and Monthly Cost Analysis Report.

VII. Statutory/Regulatory Guidelines
The Census Bureau has not identiﬁed any signiﬁcant barriers to date, but will notify the Oﬃce of Management and
Budget and Congress of any barriers that inhibit actions to reduce improper payments if they occur.

VIII. Guidelines to Avoid Improper Payments
• 	 Limited/controlled access to vendor ﬁles and basic vendor information (e.g., name, address, taxpayer
    identiﬁcation number, business size) is available to ﬁnancial system users; access to banking information,
    however, is strictly limited by system to certain ﬁnance departments.

• 	 Controlled access to ﬁnancial system accounts payable screens—authority to create, edit, approve, process,
    and amend payment records—is limited to certain ﬁnancial system users. Also, authority to add or revise
    records in the vendor database is limited to the Census Bureau’s Table Maintenance Team within the Finance
    Division.

• 	 Daily prepayment audit of invoices for accuracy is done and corrective actions taken prior to disbursement,
    thereby preventing improper payments from occurring.

• 	 The monthly vendor statement for purchase cards is interfaced into the ﬁnancial system, thereby reducing data
    entry error.




U.S. Census Bureau 	                                               FY 2009 Performance and Accountability Report 75
APPENDIX D


APPENDIX D.

TOP MANAGEMENT CHALLENGES FACING THE CENSUS BUREAU

Each year, the Department’s Oﬃce of Inspector General (OIG) reviews the Department’s and its component bureaus’
program activities to ensure that the management, ﬁnancial, and operational activities are sound and meet the
requirements of the Chief Financial Oﬃcers (CFO) Act and the Government Performance and Results Act (GPRA).

The emphasis by the President, the Oﬃce of Management and Budget (OMB), and Congress on improved
government accountability underscores the Department’s resolve to enhance transparency within the Department
while promoting improved eﬃciency and eﬀectiveness. Progress in these endeavors requires strong commitment
from the Department’s senior leadership and staﬀ at all levels.

The Inspector General (IG) identiﬁed the top ﬁve management challenges facing the Department along with four
other issues requiring signiﬁcant management attention in a November 2008 report entitled Top Management
Challenges Facing the Department of Commerce. The following is a summary of the challenge relative to the
Census Bureau. The IG’s complete text of the challenges and issues may be found on the OIG Web site at
<www.oig.doc.gov/oig/reports/2008/OIG-19384.pdf>.

Challenge 1: Control the cost and improve the accuracy of the Decennial Census

Overview
The ability of the U.S. Census Bureau to successfully conduct its decennial count of U.S. residents in 2010 is at
serious risk. After spending 8 years developing a completely new approach to census-taking—one that was to
automate major ﬁeld operations—the bureau scrapped plans for using handheld computer technology for the
largest and most expensive of these operations—nonresponse follow-up—because of signiﬁcant performance
problems and the bureau’s loss of conﬁdence in the Field Data Collection Automation (FDCA) contractor. It will
now conduct this operation using paper and pencil, as it has done in previous censuses. The inability to produce
a handheld computer, combined with major ﬂaws in the bureau’s cost-estimating methods, added an estimated
$2.2 billion to $3 billion to the original $11.5 billion life-cycle cost estimate for the 2010 Census. Despite changes
made by the Department and the Census Bureau, signiﬁcant risks remain for the 2010 Census. An inaccurate
population count will have unacceptable consequences for the nation: at stake is apportionment of the 435 seats
in the House of Representatives and equitable distribution of billions of dollars in federal and state aid. Both GAO
and OMB have designated the 2010 census as a high-risk program and it is under intense scrutiny by Congress.

The overarching explanation for the signiﬁcant problems is the failure of senior Census Bureau managers to
anticipate the complex IT requirements involved in automating the census. Census had intended to develop
handheld devices in-house and tested prototypes in both 2004 and 2006. The devices had serious problems
in both tests. The bureau decided too late in the decade to contract for automation of ﬁeld operations to meet
ambitious ﬁxed deadlines for the dress rehearsal tests starting in 2007 and decennial operations starting in
2009. As late as January 2008—nearly 2 years after contract award—Census ﬁnally delivered a ﬁrst draft of a
set of requirements for the handhelds and supporting infrastructure. It had no contingency plan in the event the
handhelds proved unusable. Tremendous setbacks occurred for numerous operations in addition to nonresponse
follow-up such as plans for testing and enhancing the handhelds for address canvassing—the only operation that
will still use the devices—have been severely compressed. Because of the inordinate attention and resources
necessary to address ﬁeld automation problems, Census has not addressed the ability to enumerate traditionally
diﬃcult groups and settings, such as the homeless, military bases, and group quarters. Furthermore, the Census
Bureau eschews open dialog with outside parties and even its own regional operations. As decennial census
planning proceeded, the bureau minimized the signiﬁcance of its problems, withheld information, and was
not forthcoming with the Department, Congress, OIG, and other oversight agencies about the problems it was
experiencing, allowing them to persist to the point of crisis. Because bureau staﬀ views the decennial as so unique
that there is little to be learned from newcomers or external sources, this vision has left the bureau unreceptive to
new ways of doing business. It has not kept pace with private sector advances in business process improvement




76 FY 2009 Performance and Accountability Report                                                        U.S. Census Bureau
                                                                                                         APPENDIX D


and lacks insight into how advances can beneﬁt census operations. Leadership with private sector expertise is
vital not only for improving decennial management but also for reappraising the bureau’s other programs and
administrative operations. Although the bureau made personnel changes after the FDCA crisis became public, it
has not yet brought in external management with expertise in successfully running complex programs and system
acquisitions or in implementing contemporary private sector management methods.

In the wake of the FDCA problems, the Secretary of Commerce announced that management and oversight of
the 2010 census would be strengthened and deepened both at the bureau and the Department. He assigned
several members of the Department’s senior political leadership to work with the bureau on a recovery plan,
which has given the Secretary some measure of inﬂuence over the plan and visibility into the bureau’s progress.
The upcoming transition of key departmental leadership positions necessarily creates the risk of disrupting
existing oversight eﬀorts for the most critical program for which the new Secretary will initially be accountable.
In addition, since the Census director is a Presidential appointee, there is the prospect that the director position
will turn over again after the current Director has been on the job for slightly more than 1 year. The inevitable
delay involved in nominating and gaining conﬁrmation of a new director means that the bureau will begin major
decennial operations without the beneﬁt of signiﬁcant leadership continuity and management improvements.
Given the major late-stage changes to 2010 operations, having two short-time directors during the ﬁnal 2 years of
the decennial cycle, coupled with the long-term absence of proven high-level management expertise, could create
additional challenges the bureau must be poised to address.

With the ﬁrst major decennial operation (address canvassing) beginning in early 2009, the new Secretary will have
little opportunity to impact planning for the 2010 decennial, although he or she will have responsibility for its
overall implementation. The new Secretary does have the opportunity to impact planning for the 2020 Census. We
believe that applying the lessons learned from the 2010 decennial to the planning and reengineering of the 2020
census should also be a high priority for Secretary Locke.

Actions Taken to Address the Management Challenges
While the OIG recounts in some depth the issues and problems that arose in the winter of 2007, and that led up
to the Secretary’s decision in April 2008 to signiﬁcantly reduce the use of automation for 2010 Census ﬁeld data
collection, we [the Census Bureau] were disappointed that there was virtually no mention of the eﬀorts we had
made prior to the release of the report.

The Census Bureau began implementing its decennial census “recovery plan” in April 2008, focusing on
seven areas:

1. 	 Launching replan operations for paper Non-Response Follow-up

2. 	 Reducing risk in the Field Data Collection Automation (FDCA) contract

3. 	 Improving program management

4. 	 Improving risk management

5. 	 Improving schedule management

6. 	 Developing a program testing plan

7. 	 Improving internal and external communications

To support these areas of the recovery plan, the Census Bureau has taken a number of speciﬁc steps, including:

1. 	 Key staﬃng changes and Program Management Oﬃce (PMO) improvements,

2. 	 Closer scrutiny of the FDCA contract and replan eﬀorts,

3. 	 Improved technical assessments including embedding staﬀ with the contractor, Harris Corp.

4. 	 Working more closely with OMB, GAO, and other stakeholders to improve oversight and performance
     management.




U.S. Census Bureau 	                                                FY 2009 Performance and Accountability Report 77
APPENDIX D


For example, in response to the GAO’s designation of the 2010 Census as a High-Risk federal program, the Census
Bureau has developed a comprehensive improvement plan. This plan encompasses four key actions: (1) Develop
an integrated and comprehensive plan to control costs and manage operations, (2) Strengthen risk management
activities, (3) Strengthen systems testing, and (4) Improve management of the ﬁeld data collection automation eﬀort.

Our eﬀorts to strengthen cost control and operational management have focused on improving communications,
on improving schedule management, and on improving budget management. As one example, we point to the
“Executive [Schedule] Alert Report” produced weekly since July 23, 2008 that focuses on the 45-50 key activities
on the critical path to a successful Census. The report itself is briefed to the Census Bureau Director and the
Undersecretary weekly, and to the OMB monthly.

Strengthening risk management activities is well underway. We have identiﬁed 24 program-level risks, linked
all project-level (operational) risks to these program-level risks, and have completed documenting formal risk
mitigation strategies and contingency plans for all 24 risks.

To improve the key decennial census systems and to improve the contractor-supplied systems, we have focused
more on the near-term key operations than the later ones. Consequently we devoted major attention to the ﬁrst
two (2009) operations—Address Canvassing and Group Quarters Validation—both of which are needed to update
the Master Address File (MAF) and the TIGER spatial database. MAF/TIGER is the foundation of the Census—it
creates the universe for all other operations that collect information from the public.

The principle behind the development of the 2010 Census has been to test thoroughly and make only minimal
changes after that, culminating in an end-to-end test of all aspects of the Decennial Census in a 2008 Dress
Rehearsal (DR). Unfortunately, due to a funding delay and immature systems, we had to curtail DR testing. To
ﬁll that gap, we are (1) conducting a piecewise but comprehensive end-to-end systems test, and (2) developing
and testing operations de-scoped from the FDCA contractor. By “piecewise end-to-end” testing, we mean testing
every system or operation in isolation (or in limited sequences) and also testing all the interfaces upstream and
downstream. When we complete these systems and ﬁeld tests, we will be conﬁdent about saying “All operations
for the 2010 Census are ready.”

Our testing program has begun to prove its value, as we successfully completed the operational phase of Address
Canvassing (the operation ending July 17, 2009). Staﬀ have been conducting ﬁeld operations, successfully using
hand held computers to conﬁrm addresses, making address and spatial corrections, and collecting GPS information
for nearly every residential address in the United States. Field operations are nearing completion on schedule
and we have only observed a few minor issues, with which we have quickly dealt. The successful completion of
Address Canvassing demonstrates the validity of the Census Bureau’s recovery plan and leaves us conﬁdent, that
with continuing eﬀorts, we will conduct a successful 2010 Census.




78 FY 2009 Performance and Accountability Report                                                       U.S. Census Bureau
                                                                                                       APPENDIX E


APPENDIX E.

STAKEHOLDERS AND CROSSCUTTING PROGRAMS

The Census Bureau has numerous crosscutting programs involving multiple bureaus: other federal, state, and local
agencies; foreign governments; and private enterprise. Federal programs dealing with economic and technological
development, international trade, and demographic and economic statistics play a major role in advancing the
welfare of all Americans. The Census Bureau continues to work with other government agencies in furthering
eﬀorts in these areas of importance to the American public. Crosscutting programs include the following federal,
state, and local agencies:


                                 OTHER FEDERAL AGENCIES AND ORGANIZATIONS
 Department of Defense                                   Bureau of Labor Statistics
 Department of Energy                                    Council of Economic Advisors
 Department of Justice                                   Agency for International Development
 Department of State                                     Federal Reserve Board
 Department of Treasury                                  Bureau of Transportation Statistics
 Department of Labor                                     National Institute of Health
 Department of Housing and Urban Development             Federal Emergency Management Agency/
                                                          Homeland Security
 Department of Agriculture                               National Science Foundation
 Department of Transportation                            U.S. Postal Service
 Department of Education                                 Federal Bureau of Investigation
 Department of Health and Human Services                 Agency for Health Care Research and Quality
 Department of Homeland Security                         Federal Deposit and Insurance Corporation
 Environmental Protection Agency                         National Academy of Science
 Small Business Administration                           State Data Centers
 National Imagery and Mapping Agency                     Federal Geographic Data Committee
 U.S. Geological Survey                                  Interagency Council on Statistical Policy

 Note: This is not an all-inclusive listing.




U.S. Census Bureau                                                FY 2009 Performance and Accountability Report 79
APPENDIX F


APPENDIX F.

SUMMARY OF FINANCIAL STATEMENT AUDIT AND MANAGEMENT ASSURANCE

Presented below is a summary of ﬁnancial statement audit and management assurances for FY 2008 for the
Census Bureau as a component of the Department of Commerce. Table 1 relates to the Census Bureau’s FY 2008
ﬁnancial statement audit, which resulted in an unqualiﬁed opinion with no material weaknesses. Table 2 presents
the number of material weaknesses reported by the Census Bureau under Section 2 of the Federal Manager’s
Financial Integrity Act (FMFIA)—either with regard to internal controls over operations or ﬁnancial reporting—and
Section 4, which relates to internal controls over ﬁnancial management systems; as well as the Census Bureau’s
Compliance with the Federal Financial Management Improvement Act (FFMIA).

Table 1. Summary of Financial Statement Audit


 • Audit Opinion:      Unqualiﬁed
 • Restatement:        No
                                     Beginning
    Material Weaknesses               Balance          New   Resolved    Consolidated          Ending Balance
 No Material Weaknesses                 0               0       0              0                        0
 Total Material Weaknesses              0               0       0              0                        0


 Table 2. Summary of Management Assurances

 EFFECTIVENESS OF INTERNAL CONTROL OVER FINANCIAL REPORTING (FMFIA § 2)
 Statement of Assurance:         Unqualiﬁed
                                     Beginning                                                               Ending
 Material Weaknesses                  Balance          New   Resolved    Consolidated      Reassessed       Balance
 No Material Weaknesses                 0               0       0              0               0                0
 Total Material Weaknesses              0               0       0              0               0                0
 EFFECTIVENESS OF INTERNAL CONTROL OVER OPERATIONS (FMFIA § 2)
 Statement of Assurance:      Unqualiﬁed
                                     Beginning                                                              Ending
 Material Weaknesses                  Balance          New   Resolved    Consolidated      Reassessed       Balance
 IT Certiﬁcation and
 Accreditation                          0               0       0              0               0                0
 Total Material Weaknesses              0               0       0              0               0                0
 CONFORMANCE WITH FINANCIAL MANAGEMENT SYSTEM REQUIRMENTS (FMFIA § 4)
 Statement of Assurance:      Systems conform with ﬁnancial management system requirments
                                     Beginning                                                              Ending
 Non-Conformances                     Balance          New   Resolved    Consolidated      Reassessed       Balance
 No Non-Conforming Issues               0               0       0              0               0                0
 Total Non-Conformances                 0               0       0              0               0                0
 COMPLIANCE WITH FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA)
                                              AGENCY                               AUDITOR
 Overall Substantial Compliance                Yes                                   Yes
 1. System Requirements                                                 Yes
 2. Accounting Standards                                                Yes
 3. USSGL at Transaction Level                                          Yes




80 FY 2009 Performance and Accountability Report                                                        U.S. Census Bureau
                                                                                                       APPENDIX F


APPENDIX G.

LIST OF KEY ACRONYMS


 ABBREVIATION        TITLE
  ACS                American Community Survey
  ACSI               American Customer Satisfaction Index
  APMS               Automated Property Management Systems
  APP                Annual Performance Plan
  ARRA               American Recovery and Reinvestment Act
  ASA                American Statistical Association
  BAS                Boundary Annexation Survey
  BEA                Bureau of Economic Analysis
  CBP                County Business Patterns
  CBS                Commerce Business Systems
  CCR                Central Contractor Regulations
  CFO                chief ﬁnancial oﬃcer
  CORs               contracting oﬃcer’s representatives
  COTS               commercial oﬀ-the-shelf
  CPS                Current Population Survey
  CSAM               Cyber Security Assessment Methodology
  CSRS               Civil Service Retirement System
  DAPPS              Decennial Applicant Personnel and Payroll System
  DOC                U.S. Department of Commerce
  DOL                U.S. Department of Labor
  DRIS               Decennial Response Integrated System
  DUNS               Data Universal Numbering System
  EDA                Economic Development Administration
  EFT                electronic funds transfer
  EHC                event history calendar
  ESA                Economics and Statistics Administration
  FAR                Federal Accounting Regulations
  FASAB              Federal Accounting Standards Advisory Board
  FDCA               Field Data Collection Automation
  FECA               Federal Employees’ Compensation Act
  FERS               Federal Employees’ Retirement System
  FFMIA              Federal Financial Management Improvement Act of 1996
  FMFIA              Federal Managers’ Financial Integrity Act of 1982
  FTE                full-time equivalent
  FY                 ﬁscal year
  GAAP               Generally Accepted Accounting Principles


U.S. Census Bureau                                                FY 2009 Performance and Accountability Report 81
APPENDIX F



 ABBREVIATION         TITLE
 GAO                  Government Accountability Oﬃce
 GDP                  gross domestic product
 GPRA                 Government Performance and Results Act of 1993
 GPS                  global positioning system
 GSA                  U.S. General Services Administration
 IPIA                 Improper Payments Information Act
 IA                   interagency agreement
 IT                   information technology
 IUS                  internal use software
 MAF                  Master Address File
 NFC                  National Finance Center
 NIST                 National Institute of Standards and Technology
 OIG                  Oﬃce of Inspector General
 OMB                  U.S. Oﬃce of Management and Budget
 OPM                  U.S. Oﬃce of Personnel Management
 PAR                  Performance and Accountability Report
 PC&P                 Periodic Censuses and Programs
 QSS                  Quarterly Service Survey
 S&E                  Salaries and Expenses
 SFFAC                Statement of Federal Financial Accounting Concepts
 SFFAS                Statement of Federal Financial Accounting Standards
 SIPP                 Survey of Income and Program Participation
 TSP                  Thrift Savings Plan
 TIGER®               Topologically Integrated Geographic Encoding and Referencing System
 Treasury             U.S. Department of Treasury
 WCF                  Working Capital Fund




82 FY 2009 Performance and Accountability Report                                            U.S. Census Bureau
